OIG SAR 5-22-07   5/23/07   2:55 PM   Page i




                                                   IG’s

                                               Semiannual

                                                  Report

                                               to Congress



                                                March 2007

OIG SAR 5-22-07   5/23/07   2:55 PM   Page ii
OIG SAR 5-22-07   5/23/07   2:55 PM   Page iii




              March 31, 2007

              The Honorable Carlos M. Gutierrez
              Secretary of Commerce
              Washington, D.C. 20230


              I am pleased to submit this Semiannual Report to Congress, which details the work and activities of the Office
              of Inspector General for the 6-month period October 1, 2006, through March 31, 2007. The Inspector
              General Act of 1978 requires that we prepare this report twice each year to summarize our assessments of
              Commerce operations and that you transmit it, with any comments you may wish to add, to Congress within
              30 days of receiving it.
              During this reporting period, we began a number of key reviews and concluded others that address some of the
              top operational priorities my office shares with you and Deputy Secretary Sampson. These include our nearly
              completed assessments of (1) the causes and impacts of lost laptops at the Census Bureau, initiated at your
              request, and (2) the bureau’s 2006 test of its planned approach for enumerating historically undercounted
              American Indian reservations. We detail our audit of EDA’s multimillion-dollar revolving loan fund program.
              We also report on three of the Department’s trade-related activities—Commerce’s interagency trade promotion
              efforts, the Bureau of Industry and Security’s export control program for India, and Commercial Service’s trade
              operations in Brazil. And we recount our reviews of various NIST and NOAA operations, including the severe
              weather warning procedures at NOAA’s National Weather Service in relation to a deadly tornado that struck a
              Minnesota city and killed a young girl.
              This Semiannual Report also summarizes the outcome of the Department’s FY 2006 financial statements audit.
              I commend your senior officials for maintaining a clean opinion once again and for the improving status of
              internal IT controls over financial reporting systems.
              Finally, we report on our prevention efforts—among them our work helping NTIA ensure a proposed grant
              recipient has the proper systems and procedures in place to carefully manage some $30 million in federal funds.
              And we detail the results of several internal control reviews and audits of financial assistance programs, as well
              as our latest investigations.
              Please accept my thanks for your continued support of the work of my office, and for the willingness of your
              senior managers to partner with us in pursuit of strong, sound operations Department-wide.


              Sincerely,




              Johnnie E. Frazier
OIG SAR 5-22-07   5/23/07   2:55 PM   Page iv
OIG SAR 5-22-07   5/23/07      2:55 PM        Page v




                                                                  CONTENTS

              IG’s Message to Congress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

              Major Challenges for the Department . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

                   Control the Cost and Improve the Accuracy of the Decennial Census . . . . . . . . . . . . . . . . . . . . . . . . . . 3

                   Strengthen Department-Wide Information Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                   Effectively Manage Departmental and Bureau Acquisition Processes . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                   Strengthen Internal Controls over Financial, Programmatic, and Business Practices . . . . . . . . . . . . . . . . 8

                   Ensure that USPTO Uses Its Authorities and Flexibilities as a Performance-Based

                   Organization to Achieve Better Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                   Effectively Manage the Development and Acquisition of Environmental Satellites . . . . . . . . . . . . . . . . 11

                   Promote Fair Competition in International Trade . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                   Effectively Manage NOAA’s Stewardship of Ocean and Living Marine Resources . . . . . . . . . . . . . . . . 14

                   Aggressively Monitor Emergency Preparedness, Safety, and Security Responsibilities . . . . . . . . . . . . . . 15

                   Enhance Export Controls for Dual-Use Commodities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

              Agency Overviews
                   Bureau of Industry and Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                   Economic Development Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

                   International Trade Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

                   National Oceanic and Atmospheric Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

                   National Telecommunications and Information Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

                   Technology Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

                   United States Patent and Trademark Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

                   Department-Wide Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55

              Office of Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61

                   Office of Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61

                   Other OIG Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

                   Tables and Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65

                   Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 72

              Types of OIG Work Products . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 74

              Additional Photography and Graphics Credits/Captions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 75

              Department Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 76

              OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77

OIG SAR 5-22-07   5/23/07   2:55 PM   Page vi
OIG SAR 5-22-07   5/23/07   2:55 PM    Page 1




                         IG’S MESSAGE TO CONGRESS

                                                                               is impenetrable to unauthorized users, and flexible

              T
                      his past February, the President’s Council on
                      Integrity and Efficiency, in its annual Progress         enough to accommodate the ever-changing
                      Report to the President, detailed potential              requirements of secure electronic data exchange.
              savings of roughly $17 billion resulting from IG work
              in FY 2006. This is one repeat finding the IG                    Looking Toward Leadership
              community takes great pleasure in sharing. Every year
              since we began submitting these progress reports,                As for the variety of other work we initiated or
              inspectors general have consistently shown the                   completed during this semiannual period, we are
              combined annual impact of our work to be in the                  already seeing the promise of huge paybacks in terms
              billions of dollars.                                             of dollars saved or more effectively spent as Commerce
                                                                               officials respond to our findings with a commitment to
              But these numbers tell only part of the story. What              shoring up weaknesses and implementing change. One
              they don’t convey is the harder to quantify effect of            such finding that has emerged as a theme in several of
              our proactive collaboration with our respective                  our reviews, past and present, is the need for strong
              agency officials: working together up front to ensure            leadership direction and oversight in some of the
              proposed policies and programs are sound, we avert               Department’s most critical and costly endeavors. We
              the potential loss or misuse of perhaps billions more.           reported in our September 2006 Semiannual Report
              And this effect can reach beyond federal coffers to              how poor oversight from top officials responsible for
              include protection of individual citizens’ resources.            NOAA’s National Polar-orbiting Operational


              I have had the privilege of serving as IG at the Department of Commerce for nearly a decade, and
              in all that time—though challenges and priorities have shifted focus—one thing has remained
              constant: the commitment to ensuring sound departmental operations and providing excellent
              public service that my office and senior Commerce officials have always shared.

              Our evaluation of laptop security and accountability—            Environmental Satellite System contributed to huge
              initiated during this semiannual period at Secretary             cost overruns and delays.
              Gutierrez’s request—is a good example of this latter
              point. These days, maintaining the confidentiality of            Leadership issues are without question at the heart of
              personal data has become a paramount concern for                 the ineffective management of EDA’s revolving loan
              public and private organizations alike, as data breaches         fund program. We detail in this semiannual report
              and identity theft have reached inconceivable levels. At         the findings of our comprehensive review of the
              Commerce, the disappearance of several hundred                   program, in which we documented long-standing,
              Census laptop computers, many of which contained                 systemic failings in regional and headquarters
              sensitive data, has raised concerns on two fronts: first,        management and oversight that have translated into a
              where was the breakdown in personal property                     history of recipients’ poor accountability for funds,
              accountability that allowed these losses to occur?               noncompliance with reporting and auditing
              Second, did the laptops have adequate data access                requirements, and gross underutilization of available
              controls to prevent compromise of the information                capital, among other things. We also uncovered a
              they carried? Our evaluation of these issues, when               huge discrepancy between the value of the RLF
              completed, will offer the Secretary, Department                  portfolio as reported by EDA in 2003 and the value
              officials, and Congress a set of actions for preventing          documented by available records. (See page 27.)
              future losses of both the physical equipment and the
              sensitive data. In the case of information security, these       EDA officials have long been aware that this program
              actions must promote a computing environment that                is seriously troubled and have worked in good faith to


                                                                           1
OIG SAR 5-22-07   5/23/07   2:55 PM      Page 2




              IG’s Message to Congress                                                      March 2007—Semiannual Report to Congress



              address the issues. They have been most receptive to            involving Commerce policies, procedures, and internal
              the recommendations in our recent report and have               controls, as well as agency adherence to them.
              committed to implementing them. We will continue
              to monitor EDA’s efforts to do what is necessary to             Our annual financial statements audits again rendered
              improve management of the program.                              clean opinions for both the Department and USPTO,
                                                                              though deficiencies in information technology
              Balancing Trade Promotion and Control                           controls persist. (See pages 57 and 53, respectively.)
                                                                              But both reduced the number of weaknesses noted in
              This semiannual report also details our work                    last year’s audits and continue to improve the overall
              pertaining to several of Commerce’s trade-related               IT control environment.
              activities:
                                                                              We audited the Department’s internal controls for
              Export Controls. We completed our final export                  “premium class” (i.e., first and business class) air
              control review, as mandated by the National Defense             travel and noted numerous policy and procedural
              Authorization Act of FY 2000, this time evaluating the          deficiencies that require management attention. (See
              effectiveness of dual-use controls over exports to India.       page 55.)
              (See page 19.) We identified several areas of concern
              that could inadvertently facilitate the transfer of             And in response to a request from Congress, we
              controlled items to unacceptable end users or for               reviewed the National Weather Service’s handling of
              prohibited purposes. We reported our findings to                its tornado warning responsibilities in relation to a
              agency officials and Congress in both classified and            deadly tornado that struck Rogers, Minnesota, last
              unclassified documents for their consideration as the           fall. (See page 41.) Overall, we found that NWS
              nation continues to relax its trade policies with India.        followed policies and procedures but noted a few
                                                                              factors that may have adversely affected its
              Interagency Trade Coordination. In response to a                performance in dealing with the complex weather
              request from Congress, we reviewed Commerce’s                   conditions that existed on the day in question.
              efforts to promote trade and coordinate these
              activities with other agencies, identifying a number of         Sharing a Commitment to Excellence
              areas in which improved collaboration would likely
              enhance overseas trade prospects for U.S. exporters.            I have had the privilege of serving as IG at the
              (See page 37.)                                                  Department of Commerce for nearly a decade, and in
                                                                              all that time—though challenges and priorities have
              Commercial Service Operations in Brazil.                        shifted focus—one thing has remained constant: the
              Continuing our series of Latin American post                    commitment to ensuring sound departmental
              inspections, we assessed the effectiveness of                   operations and providing excellent public service that
              Commercial Service posts in Brazil. (See page 33.)              my office and senior Commerce officials have always
              While finding sound operations overall, we noted the            shared. This is evident in the Department’s traditional
              same weaknesses in performance reporting that were              willingness to work with us, its track record for
              prevalent at the bulk of overseas and domestic trade            accepting and implementing the vast majority of our
              offices we have visited during the past 5 years. ITA            recommendations, and its openness to alternative
              and Commercial Service must fine-tune their metrics             solutions for those instances in which we disagree.
              for export success reporting to ensure the data conveys
              an accurate picture of an individual post’s effectiveness       The work contained in this Semiannual Report
              in expanding U.S. commercial interests abroad.                  reaffirms our shared commitment. I thank Secretary
                                                                              Gutierrez, Commerce managers at all levels, and
              Assessing Policies, Procedures, and                             Congress for their support of this partnership and its
              Internal Controls                                               promise of good government.

              Finally, during this reporting period, we concluded a
              number of audits, such as those described below,


                                                                          2
OIG SAR 5-22-07    5/23/07   2:55 PM   Page 3




                                   MAJOR CHALLENGES

                                  FOR THE DEPARTMENT

                                                                         Challenge 1
              T
                      his section highlights the Top 10
                      Management Challenges that faced the
                      Department at the close of this semiannual         Control the Cost and
              period. Each challenge meets one or more of the            Improve the Accuracy
              following criteria: (1) it is important to the
              Department’s mission or the nation’s well-being, (2)       of the Decennial Census
              it is complex, (3) it involves sizable resources or
              expenditures, or (4) it requires significant               At an estimated cost of $11.5 billion, the 2010
              management improvements. Because of the diverse            census will be the country’s most expensive decennial
              nature of Commerce activities, these criteria              ever, both per capita and overall. The Census Bureau’s
              sometimes cut across bureau and program lines.             redesigned decennial plan, established after the 2000
              Experience has shown that by aggressively addressing       census, is heavily dependent on automating critical
              these challenges, the Department can enhance               field operations to accurately count the nation’s
              program efficiency and effectiveness; eliminate            population within budget. The bureau has
              serious operational problems; decrease fraud, waste,       established an ambitious testing schedule to monitor
              and abuse; and achieve substantial savings.                development and implementation of the strategy,
                                                                         identify problems, and incorporate solutions in time
                                                                         for 2010.
                     Top 10 Management Challenges
                   1. Control the cost and improve the accuracy          During the past year, we reviewed various aspects of
                      of the decennial census.                           the bureau’s 2006 test held in Travis County, Texas,
                                                                         and the Cheyenne River Reservation and Off-
                   2. Strengthen Department-wide

                                                                         Reservation Trust Land in South Dakota.
                      information security.

                   3. Effectively manage departmental and bureau
                      acquisition processes.
                                                                         Automating Address Canvassing
                   4. Strengthen internal controls over financial,
                      programmatic, and business processes.
                                                                         In our March 2006 Semiannual Report (page 19), we
                   5. Ensure that USPTO uses its authorities and         described our review of Census’s test of automated
                      flexibilities as a performance-based               address canvassing—an operation designed to keep
                      organization to achieve better results.            the bureau’s address file and digital map database
                   6. Effectively manage the development and
            current and complete. During address canvassing,
                      acquisition of environmental satellites.
          temporary staff equipped with handheld computers
                   7. Promote fair competition in
                       go into the field to verify, update, add, or remove
                      international trade.
                              addresses; add and delete streets to correct computer
                                                                         maps; and annotate address locations on the maps.
                   8. Effectively manage NOAA’s stewardship of           The information they collect has a direct bearing on
                      ocean and living marine resources.                 the bureau’s ability to accurately count the population.
                   9. Aggressively monitor emergency preparedness,
                      safety, and security responsibilities.             We found several problems that undercut the value of
                  10. Enhance export controls for                        the canvassing test, most notably, unreliable
                      dual-use commodities.                              handheld computer functions, including the GPS
                                                                         capabilities; inaccurate maps; insufficient quality


                                                                     3
OIG SAR 5-22-07   5/23/07   2:55 PM    Page 4




              Major Challenges for the Department                                            March 2007—Semiannual Report to Congress



              control training; and an inadequate focus on                  final enumeration list, while others were duplicates—
              outreach. We concluded that the bureau only                   appearing on both the enumeration and housing unit
              partially achieved its test objectives and could have         lists or twice on the enumeration list.
              earned a better return on its investment if it had
              fielded more reliable handheld computers, tested              We recommended that Census take additional steps
              areas where the postal service delivery of                    to count the student population, such as working
              questionnaires could potentially replace bureau               closely with fraternity and sorority campus oversight
              delivery to reduce costs, evaluated outreach efforts          organizations and exploring the use of the Internet as
              aimed at the hard-to-enumerate American Indian                a response option for this computer-oriented
              population, and assessed the viability and cost-              generation. Finally, we noted that some additional
              benefits of its decision to canvass nearly every              group quarters processes and procedures warrant
              household in the country in 2010.                             management attention.

              The Census Bureau concurred with some of our
              findings and recommendations, but took issue with             Counting American Indians
              others. In particular, the bureau disagreed that
                                                                            on Reservations
              valuable learning opportunities were missed, that
              unreliable handheld computers interfered with the
                                                                            We recently concluded fieldwork on one final 2006
              test, and that an analysis of the costs and benefits of
                                                                            test operation: update/enumerate at the Cheyenne
              100 percent address canvassing should be performed
                                                                            River Reservation—an effort designed to reduce the
              and less costly alternatives considered.
                                                                            historic undercount of American Indians living
                                                                            on reservations. Update/enumerate is used in
                                                                            communities where residents are less likely to return
              Improving Group Quarters Enumeration                          a completed questionnaire, so enumerators go door
                                                                            to door to collect census information in person and
              Although most U.S. residents live in residential              update the address lists and maps.
              housing units such as single-family houses,
              apartments, and mobile homes, more than 7 million
              people live in college dormitories, nursing homes,
              prisons, and group homes, collectively known as
              group quarters. In our September 2006 Semiannual
              Report (page 21), we reported on our review of the
              group quarters testing operation in Travis County,
              Texas—an ideal test location because it is home to
              four universities and colleges, a state prison, and
              numerous other group living facilities.

              We found that the bureau continues to face a number
              of challenges in enumerating group quarters. For
              example, (1) nontraditional student housing, such as
              private dorms and student cooperatives, did not
              easily fit into any of Census’s group quarters
                                                                                                                               U.S. Census Bureau
              definitions, and so some were not enumerated;
                                                                            In 2005 some 4.5 million people—or 1.5 percent of the total U.S.
              (2) 42 percent of the validation workload was                 population—identified themselves as American Indian and
              associated with large apartment complexes                     Alaskan Native (either alone or in combination with other races).
              erroneously identified as potential group quarters            These populations have been historically undercounted in decennial
              during address canvassing, which caused problems in           censuses. The Census Bureau is modifying its traditional approach
                                                                            to enumerating Native Americans for the 2010 census in hopes of
              group quarters validation and nonresponse follow-             getting a more accurate count.
              up; (3) a number of group quarters were not on the


                                                                        4
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 5




              March 2007—Semiannual Report to Congress                                                Major Challenges for the Department



              We are preparing to issue our draft report to                 considering key concerns discussed in our summary
              Census officials, in which we will detail our                 report on Census 2000 (Improving Our Measure of
              recommendations for improving reservation                     America: What Census 2000 Can Teach Us in Planning
              enumerations. We will discuss our final report in our         for 2010, OIG-14431). Numerous topics emerged
              September 2007 Semiannual Report to Congress.                 from our extensive work since—evaluations of the
                                                                            master address file, TIGER® maps, handheld
                                                                            computers, and components of the 2004 and 2006
              Protecting Confidentiality                                    census tests. Considering the results of this prior
                                                                            work and the bureau’s goals of reducing costs and
              Public cooperation is essential to the bureau’s ability       improving accuracy and timeliness, we have
              to improve the accuracy of the decennial census and           identified and prioritized over 50 areas for potential
              successfully conduct its other surveys. But most              review, including various Census operations, large
              people are willing to cooperate only if assured that          contracts, internal controls, new major systems, and
              the sensitive personal information they share is              budgetary matters. We will seek input from the
              protected. Unfortunately, the recent, well-publicized         Department, the Census Bureau, and Congress in
              loss of hundreds of Census laptops and unauthorized           finalizing our agenda for the remainder of the decade
              release of personal data on a bureau web site is likely       and look forward to further contributing, through
              to undermine trust.                                           our work, to a successful 2010 decennial census.

              Our office, at the request of Secretary Gutierrez, is
              assessing the bureau’s property management policies
              and practices as well as its controls for protecting          Challenge 2
              sensitive personal information in light of the laptop
              losses. We will report our findings during the next           Strengthen Department-Wide
              semiannual period.                                            Information Security
                                                                            Information security remains at the forefront of the
              OIG Planning: 2008 Census Dress                               challenges facing most federal agencies, as they
              Rehearsal and 2010 Decennial Census                           endeavor to protect critical assets and sensitive
                                                                            information in the ever-changing online world. Last
              The bureau has one final opportunity to test and              year, 19 federal agencies reported IT security breaches
              improve its decennial design and methods before               and loss of sensitive personal information in incidents
              conducting the 2010 census—the 2008 dress                     dating back to 2003, the result of unauthorized
              rehearsal. Slated for Stockton, California, and               system access or—in the case of stolen laptops—lax
              Fayetteville, North Carolina, and a number of                 personal property controls.1 Increasing use of mobile
              surrounding counties, the dress rehearsal will execute        devices and expanding remote access privileges are
              nearly all planned operations and procedures under            but two of the trends reshaping the way government
              conditions as close to those of the actual decennial as       conducts business that require vigilant, proactive, and
              possible. This is a huge and critical undertaking, and        ever-more creative security solutions.
              key to the success of 2010.
                                                                            Since enactment of the Federal Information Security
              The Office of Inspector General has undertaken a              Management Act (FISMA) in 2002, agencies have
              comprehensive planning effort to determine how to             spent millions of dollars to improve the security of
              best utilize our limited resources in conducting              information stored on their computer systems and
              effective oversight and providing Census with the             shared via the Internet. Yet weaknesses persist and
              most meaningful feedback on dress rehearsal
              operations during the time remaining in this
              decennial cycle. We began the decade by first                 1
                                                                                http://oversight.house.gov/Documents/20061013145352­
                                                                                82231.pdf



                                                                        5
OIG SAR 5-22-07    5/23/07   2:55 PM    Page 6




              Major Challenges for the Department                                                March 2007—Semiannual Report to Congress



              breaches continue. At Commerce, IT security has                systems2 to OIG for FISMA review. (Nearly 80
              been a material weakness since 2001.                           percent of Commerce’s 300 systems are either
                                                                             moderate or high impact.)

                  What Is C&A and Why Does It Matter?                        Although progress is slow, we are seeing
                                                                             improvements. Overall, security plans are better
                                                                             identifying system components (e.g., firewalls,
                  Certification is a comprehensive assessment of
                                                                             routers, switches, servers). And we have seen
                  security controls implemented in a computer
                                                                             significant advances in assessing security controls for
                  system. It determines whether controls are
                                                                             several systems. C&A of contractor systems remains
                  implemented correctly, operating as intended,
                                                                             an issue, as none we reviewed last fiscal year met the
                  and meeting the security requirements for the
                                                                             requirements of Commerce’s IT security policy and
                  system. Through the formal assessment of
                                                                             applicable NIST standards and guidance.
                  controls, the system certifier identifies any
                  vulnerabilities that have not been eliminated by
                                                                             This fiscal year, we have redoubled our efforts to
                  security controls.
                                                                             convey C&A problems and needed fixes to CIOs,
                                                                             senior officials, authorizing officials, and system
                  Accreditation       is    management’s       formal
                                                                             owners throughout the Department. This dialogue
                  authorization to allow a system to operate. It
                                                                             has already begun to pay off by prompting greater
                  includes an explicit acceptance of the risks posed
                                                                             management attention to IT security and better
                  by any identified remaining vulnerabilities.
                                                                             understanding of C&A requirements, challenges, and
                  Through accreditation, senior agency officials
                                                                             responsibilities. Senior officials better appreciate the
                  take responsibility for the security of systems they
                                                                             rigor of the C&A process and the need to ensure that
                  manage and for any adverse impacts should a
                                                                             government personnel developing the packages, as
                  breach in security occur.
                                                                             well as the contractors supporting them, have the
                                                                             necessary knowledge and skills.

              The Department’s certification and accreditation
              (C&A) process is the reason for the material                   Lost Laptops Prompt Department-wide
              weakness. According to NIST guidance, authorizing
                                                                             Security Fix
              officials must have complete, accurate, and
              trustworthy information on a system’s security status
                                                                             In September 2006, the Department reported that
              in order to make timely, credible, risk-based decisions
                                                                             1,138 laptop computers had been lost or stolen over
              on whether to authorize its operation. This
                                                                             the past 5 years, and more than 20 percent contained
              information is produced by the system security
                                                                             sensitive personal data. In October it reported that
              certification process. Our reviews of the
                                                                             297 instances of compromise had occurred since
              Department’s C&A packages continue to find a
                                                                             2003, involving laptops, handheld devices, and
              C&A process that does not adequately identify and
                                                                             thumb drives. Publicized breaches in the security of
              assess needed management, operational, and
                                                                             personally identifiable information have prompted
              technical security controls. As a result, authorizing
              officials do not have the information they need to             2
                                                                                 In accordance with NIST’s Federal Information Processing
              make sound accreditation decisions.                                Standards (FIPS) Publication 199, agencies must categorize
                                                                                 their IT systems and data as high, moderate, or low impact
              To improve C&A, Commerce’s Office of the Chief                     according to the potential harm to an agency’s mission that
              Information Officer (OCIO) began reviewing C&A                     system compromise or unauthorized data disclosure would
                                                                                 cause. For example, a system that processes routine, nonprivate
              packages in FY 2005, working with the bureaus to                   administrative information is considered low impact. A system
              improve noted deficiencies and forwarding packages                 that processes statistical data based on personally identifiable
              considered acceptable for high- or moderate-impact                 information is considered moderate impact, and a system that
                                                                                 is used for emergency or disaster response is considered
                                                                                 high impact.



                                                                         6
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 7




              March 2007—Semiannual Report to Congress                                             Major Challenges for the Department



              new OMB requirements for protecting this                       in the bureaus and at the departmental level. Recent
              information and a new policy at Commerce. OMB                  OIG audits and evaluations have identified the need
              requires that all mobile computing devices encrypt             for improvements in acquisition planning, to
              sensitive data and that agencies report related security       include accurate independent cost estimates,
              breaches to the U.S. Computer Emergency Readiness              effective market research, and full and open
              Team (US-CERT) within 1 hour of discovering                    competition whenever possible.
              them. Under the Department’s new policy, only
              laptops equipped with approved encryption software             Part of the challenge facing the Department in this
              may store personally identifiable information.                 area is the high turnover in upper management
              Carrying this information on thumb drives, CDs,                contracting positions at several of its agencies.
              and similar devices has been restricted. Challenge 1           Continuity and consistency in contracts management
              (page 3) on the decennial census describes the work            and oversight are essential to ensuring the
              we are doing in response to the Secretary’s request to         government gets what it pays for in these complex,
              assess the security controls on Census laptop                  costly acquisitions—and that services are delivered
              computers and other mobile devices. This evaluation            on time and within budget. But the obstacles to
              is near completion and will be discussed in detail in          achieving these goals are steadily increasing, and with
              our next Semiannual Report.                                    them, the demands on contracts personnel. The
                                                                             Department needs a plan to replace the lost talent
              In January, Commerce began a Department-wide                   and develop and retain staff already on board to
              project to encrypt all laptops as quickly as possible.         provide the high-level management expertise and
              By mid-March, four operating units (including OIG)             consistency needed.
              had encrypted their entire inventory of laptops; two
              had requested waivers; and the remaining agencies
              had various completion dates, the latest being June 1.
              The Department has also instituted procedures for
                                                                             New Contract Audits Division
              reporting security incidents involving sensitive data
              to US-CERT within the 1-hour deadline.                         To enhance our oversight of Commerce’s acquisition
                                                                             activities, we have established a contract audits
              Finally, responding to OMB requirements,                       division to focus on them. The division will audit
              Commerce is working toward “two-factor                         individual contracts and look at crosscutting
              authentication” for accessing agency IT systems,               acquisition issues to identify opportunities to
              which would use a biometric identifier, such as a              improve departmental and bureau procurement
              fingerprint, along with a password, and would                  policies and to minimize the likelihood of fraud,
              require that sensitive data extracted from agency              waste, and abuse. It will also look for and report on
              databases be erased from the downloading computer              best practices and innovative approaches that can be
              within 90 days of the download.                                adopted Department-wide.

                                                                             The division’s initial area of emphasis will be the
                                                                             Census Bureau’s procurement of products and
                                                                             services to support the 2010 decennial census. The
              Challenge 3                                                    bureau estimates that 17 percent ($1.9 billion) of its
              Effectively Manage Departmental                                2010 budget will be spent on contracts for
                                                                             information technology systems, advertising, and
              and Bureau Acquisition Processes                               leases for local office space. Contract audits staff is
                                                                             currently monitoring Census’s efforts to procure
              With Commerce spending nearly $2 billion a year                advertising and other communications services.
              on goods and services, the potential for waste, fraud,         These are considered essential to the bureau’s efforts
              or abuse looms large within the Department. OIG                to lower operational costs by obtaining a high return
              continues to closely monitor procurement processes             rate for mailed questionnaires and thereby



                                                                         7
OIG SAR 5-22-07   5/23/07   2:55 PM    Page 8




              Major Challenges for the Department                                             March 2007—Semiannual Report to Congress



              minimizing the number of households that require                 Challenge 4
              nonresponse follow-up.
                                                                               Strengthen Internal Controls over
              Census issued a request for proposals for
              communications services in January 2007 and plans
                                                                               Financial, Programmatic, and
              to award a single indefinite delivery/indefinite                 Business Practices
              quantity contract, with maximum costs capped at
              $300 million, in the fall of 2007. We are monitoring             Internal controls are the steps agencies take to make
              the progress of this procurement, and plan to pay                sure their operations are effective, efficient, and in
              close attention to its management at every phase.                compliance with laws and regulations. Internal
              Among other things, we will focus on how Census                  controls also ensure that financial reporting is reliable
              measures the contractor’s performance and whether it             and assets are safeguarded from waste, loss, or
              uses award fees appropriately.                                   misappropriation.

              Other contracts of interest to OIG include one issued            Under OMB’s revised Circular A-123, agencies in FY
              by NOAA’s National Data Buoy Center, a part of the               2006 began implementing new internal accounting
              National Weather Service that designs, develops,                 controls and since FY 2004 have had to issue audited
              operates, and maintains a network of data-collecting             financial statements within 45 days of the fiscal year’s
              buoys and coastal stations. In 2005 the center                   close. Commerce has met this deadline both years,
              awarded a 10-year contract worth up to $500 million              and has continued to receive a clean opinion on its
              for technical services support for its marine                    consolidated statements (see page 57).
              observation network. OIG plans to review NOAA’s
              management of this contract, as well as its oversight            These are no small accomplishments. In the years
              of the associated tasks performed to maintain and                since passage of the 1990 Chief Financial Officers
              repair data buoys and other observation platforms for            Act, Commerce has been chipping away at financial
              marine weather forecasting.                                      management problems, overhauling accounting
                                                                               practices, and consolidating an array of legacy
                                                                               financial systems into one. The result has been a more
                                                                               integrated system designed to give agency managers
                                                                               current, accurate information with which to
                                                                               make decisions.

                                                                               The next step is government-wide integration. In
                                                                               2006, under an initiative known as Financial
                                                                               Management Line of Business, OMB began
                                                                               requiring all agencies—when upgrading their
                                                                               financial systems—to consolidate their core financial
                                                                               operations (accounting, payments, and recording)
                                                                               with those of other agencies, either by using shared
                                                                               service providers or becoming shared service
                                                                               providers themselves. The goals of the initiative are to
                                                                               standardize systems, promote seamless data exchange,
                                                                               improve the quality and efficiency of financial
                                                      www.ndbc.noaa.gov/
                                                                               operations, reduce costs, and eliminate redundancy.

                                                                               Agencies have until 2015 to move to or become
                                                                               shared service providers. They must begin reporting
                                                                               in June 2007 how well their financial services
                                                                               perform as part of the Financial Management Line of


                                                                           8
OIG SAR 5-22-07    5/23/07    2:55 PM     Page 9




              March 2007—Semiannual Report to Congress                                                   Major Challenges for the Department



              Business, using metrics OMB published March 30,                       Ensuring Sound Management of New
              2007. These evaluations will serve as blueprints for
                                                                                    NTIA Programs
              identifying needed internal control improvements
              and the steps required to migrate to shared services.
                                                                                    The Digital Television Transition and Public Safety
                                                                                    Act of 2005 requires the FCC to auction recovered
                                                                                    analog spectrum and deposit the proceeds into a
                                                                                    special fund. A portion of the proceeds will be used
                                                                                    to fund many new programs within the
                                                                                    National Telecommunications and Information
                                                                                    Administration. Under the act, NTIA, one of the
                                                                                    Department’s smaller agencies, is slated to manage up
                                                                                    to nine new programs, two of which have potential
                                                                                    combined budgets totaling $2.5 billion (a grant
                                                                                    program for interoperable communications and a
                                                                                    converter box coupon program).

                                                                                    Successfully implementing these new programs will
                                                                                    constitute a significant management challenge for the
                                                                                    Department. We are sharing our expertise with
                                                                                    NTIA to help it design strong, well-structured
                                                                                    programs that minimize opportunities for fraud.
                                                                                    During this period, we examined certain aspects of
                                                                                    the accounting system and financial records of a
                                                                                    broadcasting consortium slated to receive a
                                                                                    $30 million grant under the act. We provided agency
                                                                                    management with information it could use to ensure
              The Department outlined its strategy for implementing the             the grantee’s accounting structure complied with
              Financial Management Line of Business initiative in its FY 2006       federal requirements and supported appropriate use
              Performance & Accountability Report.                                  of federal funds prior to the funds’ disbursement.
                                                                                    (See page 47.) We are also monitoring the agency’s
              Planning for the transition at Commerce is under way.                 implementation of the converter box program and
              The Department is, among other things, upgrading its                  the interoperable communications grant program.
              financial applications software and consolidating these
              applications to one data center using a common
              hardware platform. It is seeking contractor support for               Evaluating Program and Accountable
              a comprehensive financial management modernization                    Property Controls
              project3 that will achieve Line of Business goals,
              including those for facilitating strong internal controls,
                                                                                    Commerce also needs to strengthen internal controls
              reducing costs, standardizing systems and business
                                                                                    for select programs and administrative operations.
              processes, and allowing seamless data exchange with
                                                                                    For example, a recent review of the Department’s
              other federal agencies. This is a huge, critical
                                                                                    Federal Employees Compensation Act program
              undertaking that we plan to carefully monitor.
                                                                                    found a variety of problems caused by poor internal
                                                                                    controls, including people who were overpaid or who
                                                                                    remained on workers’ compensation rolls for years
                                                                                    without medical justification.
              3
                  www.fbo.gov/spg/DOC/OS/OAM-OSBS/Reference%2D
                  Number%2DMARKET%2DRESEARCH%2D02232007/                            During this semiannual period, our audits of EDA’s
                  SynopsisR.html                                                    revolving loan fund program and the Department’s


                                                                                9
OIG SAR 5-22-07   5/23/07   2:55 PM    Page 10




              Major Challenges for the Department                                           March 2007—Semiannual Report to Congress



              management of premium-class travel revealed                   similar problems and the potential compromise of
              numerous deficiencies in program controls. We also            sensitive patent information.
              began looking at the Census Bureau’s accountable
              property management policies and practices, at the
              Secretary’s request, in light of the loss of several
              hundred laptops. Because the design and
              implementation of program and property controls
              can significantly impact the effectiveness of
              departmental operations, we expect that this area will
              remain an important aspect of our audit and
              inspection work.



                                                                                                                                    USPTO
              Challenge 5                                                   Patent examiners at USPTO use a dual-monitor setup to
                                                                            improve efficiency.
              Ensure that USPTO Uses Its
              Authorities and Flexibilities as a                            The long-standing and growing backlog highlights
                                                                            other issues for USPTO and OIG attention: the need
              Performance-Based Organization                                to expedite a fully electronic patent examination
              to Achieve Better Results                                     process and to carefully monitor the agency’s billion-
                                                                            dollar investment in high-risk time and materials and
              USPTO’s operations and practices have been a                  award fee contracts for related information
              strong focus of our work since March 2000, when               technology services. Our review last year of NOAA’s
              the Patent and Trademark Office Efficiency Act                multibillion-dollar award fee contract for satellites
              transformed the agency into a performance-based               revealed the pitfalls of these arrangements and the
              organization that operates like a private corporation.        potential for huge cost overruns. (See September
              We have issued nearly a dozen reports since that              2006 Semiannual Report, page 29.) OIG may
              time, examining a host of administrative, program,            conduct reviews of selected USPTO contracts to
              and operational issues. One particularly troubling            ensure vendors are complying with contract terms
              area has been human resources: our reviews of the             and conditions, containing costs, and delivering the
              agency’s HR office have identified some questionable          required services on time.
              practices and the need for improved management
              controls and policies.                                        During this semiannual period, we reviewed
                                                                            USPTO’s procurement process to learn whether the
              Strong HR operations are essential at an agency               agency’s acquisition criteria have changed since the
              hiring hundreds of new patent examiners each year to          Patent and Trademark Office Efficiency Act took
              reduce a backlog of unexamined patent applications            effect. We noted several areas that could benefit from
              that has reached historic proportions, and pursuing           improved guidance, particularly with regard to
              alternative work arrangements to enhance                      applying the Patent and Trademark Office Acquisition
              productivity and improve staff retention. These               Guidelines. We also found data input errors that
              initiatives raise other areas of concern. For example,        could have been prevented with better controls.
              USPTO continues to expand its telework program,               (See page 53.)
              allowing hundreds of patent examiners to use laptops
              to work at offsite locations. The findings of lost
              laptops and data security problems at other
              Commerce bureaus underscore the need for strong
              policies, procedures, and controls at USPTO to avoid



                                                                       10
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 11




              March 2007—Semiannual Report to Congress                                                  Major Challenges for the Department




              Challenge 6                                                    whether program staff report significant issues to
                                                                             senior Department and NOAA oversight officials in
              Effectively Manage the                                         a timely fashion and whether those officials take
                                                                             appropriate action.
              Development and Acquisition of
              Environmental Satellites                                       Our acquisition focus is on the program office’s
                                                                             overall approach to procuring key satellite
              Over the next 5 years, NOAA will spend several                 instruments, identifying potential risks, and
              billion dollars in contracts for the purchase,                 implementing associated mitigation strategies. We
              construction, and modernization of environmental               are also assessing the acquisition contracts’ award fee
              satellites. These systems, operated by the National            plans to determine whether they are structured to
              Environmental Satellite, Data and Information                  promote excellent performance.
              Service (NESDIS), collect data to provide short- and
              long-range weather forecasts and a variety of other
              critical environmental and climate information.


              GOES-R Costs, Schedule, and
              Capabilities Are Being Redefined
              In the next decade, the geostationary operational
              environmental satellite R series (GOES-R) will
              replace the existing GOES satellites. The new series
              will have enhanced sensing capabilities that are
              expected to offer an uninterrupted flow of high-
              quality data to support weather forecasting, severe
              storm detection, and climate research vital to public
              safety. GOES-R is a multicontract, multiyear
              program wholly funded by Commerce, though the
              new satellites will be developed and acquired with
              help from NASA Goddard Space Flight Center.

              The Department’s investment for GOES-R for fiscal
              years 2006 to 2010 is projected to be about                                                     www.photolib.noaa.gov/htmls/spac0107.htm
              $2 billion. Planning for the new series has been under         Over the next 5 years, NOAA will spend several billion dollars
              way for the past 6 years. During this semiannual               in contracts for the purchase, construction, and modernization of
              period, we conducted fieldwork in conjunction with             environmental satellites. Above, the predawn launch of a
                                                                             NOAA satellite.
              our joint review of the GOES-R program with
              NASA’s Office of Inspector General. Our shared
              objective is to determine whether the Department               NASA OIG plans to determine whether NASA
              and NASA have created a management structure to                program management councils effectively identify
              ensure effective oversight of the many risks associated        and review program issues and progress, and whether
              with the GOES-R program. At Commerce, the                      procedures and processes are in place to recognize,
              oversight component of our work is looking at the              mitigate, and report technical risks in accordance
              Department and NOAA’s efforts to establish effective           with NASA policy.
              monitoring organizations, policies, and procedures
              and the mechanisms NOAA will use to leverage                   The Department, NOAA, and NASA, as part of
              NASA’s oversight expertise. We are also examining              detailed risk reduction activities, have been



                                                                        11
OIG SAR 5-22-07   5/23/07     2:55 PM    Page 12




              Major Challenges for the Department                                             March 2007—Semiannual Report to Congress



              restructuring major aspects of the program in                     phase of the program to contain costs and promptly
              response to input on costs and technological risks                mitigate problems.
              provided by independent review teams and
              contractors. These changes include the following:                 NPOESS—a joint project of NOAA, NASA, and the
                                                                                Department of Defense—will be a critical element in
                   ■	   Reductions in system capabilities to contain            the nation’s ability to provide continuous weather
                        unacceptable costs and risks.                           and environmental data for civilian and military
                                                                                needs through the coming 2 decades.
                   ■	   Modifications to the satellite architecture,
                        necessitating approximately $18 million in              In November 2005, Defense reported that NPOESS
                        rework by the program definition contractors.           costs had grown by 25 percent over original
                                                                                estimates—triggering congressional recertification of
                   ■	   A revised acquisition strategy that, instead of         the program under the Nunn-McCurdy provision of
                        having one prime contractor with end-to-end             the FY 1982 National Defense Authorization Act. In
                        responsibility for the entire system, now               addition to the staggering cost increases, the program
                        awards separate contracts for the spacecraft and        was running 17 months behind schedule yet the
                        ground segments and relies on the government            contractor had received $123 million in incentive
                        to furnish the instruments.                             payments. Our audit uncovered two overarching
                                                                                management and contract weaknesses that
              NOAA and NASA have also been negotiating a                        contributed to the unchecked cost and schedule
              memorandum of understanding defining the                          overruns: first, the NPOESS Executive Committee—
              authorities and responsibilities of each organization             top leaders from the three agencies charged with
              for the management, development, acquisition, and                 overseeing the project—never challenged optimistic
              integration of GOES-R, which they had expected to                 assessments of the impact of technological problems.
              complete by the end of last calendar year. A draft                Second, the contractor received excessive award fees
              was provided for departmental review in early                     despite problems.
              January. It offers a high-level outline of
              responsibilities but defers the specifics to the                  In June 2006, the House Science Committee
              GOES-R management control plan, which is to be                    accepted a triagency proposal to continue the
              approved by NESDIS and Goddard within 90 days                     program, but with four satellites instead of six. The
              of the memorandum’s signing.                                      first satellite will launch in 2013 rather than 2010, as
                                                                                proposed in the original program. Total acquisition
              We are concluding our fieldwork and expect to report              costs were revised from the original estimate of
              recommendations for improving the Department’s                    $6.4 billion to $11.5 billion to support NPOESS
              satellite acquisition processes and oversight in the              satellite coverage through 2026.
              next semiannual period.
                                                                                As a result of our audit, NOAA agreed to institute
                                                                                regular internal program reviews as well as annual
              NPOESS Problems Increase Pressure                                 and ad hoc independent program assessments, revise
                                                                                the award fee plan to better link award fees with
              for Strong Agency Oversight
                                                                                desired outcomes, and assign responsibility for
                                                                                determining fee awards to an official who does not
              Our September 2006 Semiannual Report (page 29)
                                                                                directly manage the NPOESS program.
              detailed the findings of our audit of the National
              Polar-orbiting Operational Environmental Satellite
              System (NPOESS). Our findings revealed how far
              afield satellite procurement projects can run when
              management oversight slides. This has put new
              pressure on agency officials and program planners to
              have strong mechanisms in place for tracking every


                                                                           12
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 13




              March 2007—Semiannual Report to Congress                                           Major Challenges for the Department




              Challenge 7                                                   promotion in many instances, but we also identified
                                                                            areas where Commerce and members of the
              Promote Fair Competition in                                   interagency Trade Promotion Coordinating
                                                                            Committee could enhance their cooperation on
              International Trade                                           specific trade promotion activities, such as trade
                                                                            finance assistance. In addition, our review of the
              The Department of Commerce accomplishes its                   Department’s Internet resources for exporters found
              goals of promoting trade, opening overseas markets            that Commerce could better organize its online
              to American firms, and protecting U.S. industry               content and consolidate information from other
              from unfair trade practices primarily through the             agencies to provide a one-stop source of U.S.
              work of the International Trade Administration. ITA           government trade leads and other export assistance.
              also works with USPTO and NIST to assist U.S.                 (See page 37.)
              companies with intellectual property rights and
              standards. Over the past several years, OIG has
              focused a number of reviews on the Department’s
                                                                            U.S. Trade Promotion in Latin America
              efforts to increase U.S. market opportunities, provide
              assistance to U.S. exporters, and overcome trade
                                                                            During this semiannual period, we issued our report
              barriers in difficult foreign markets.
                                                                            on CS’ posts in Brazil and received an action plan on
                                                                            our report about its posts in Argentina and Uruguay.
                                         In September 2006, ITA’s
                                                                            (About half of the recommendations we made have
                                         Commercial Service (CS)
                                                                            been satisfied. Only seven remain open, and we have
                                         responded     to    OIG
                                                                            asked for a follow-up status report by June 30.)
                                         recommendations
                                                                            Significant export opportunities are opening in these
                                         regarding U.S. trade
                                                                            countries as Brazil’s large economy continues its
              promotion efforts in China and India by announcing
                                                                            steady growth, Argentina recovers from its 2001­
              extensive changes in its procedures for verifying
                                                                            2002 economic crisis, and Uruguay pursues closer
              export success claims, its primary performance
                                                                            trade relations with the United States. Our
              measure. CS stated that the new procedures were
                                                                            inspections focused on the management, program
              necessary because, in a significant number of cases,
                                                                            operations, and financial and administrative practices
              OIG had found discrepancies in the reported export
                                                                            of these three South American posts.
              successes. These discrepancies raised doubts about
              the integrity of the data CS reports to Congress and
                                                                            Our review of CS operations in Brazil found that the
              the administration on its accomplishments. The new
                                                                            post provides valuable assistance to U.S. companies
              CS procedures require improved documentation,
                                                                            in the complex Brazilian business environment and
              supervisory confirmation of a sample of export
                                                                            collaborates well with other trade promotion
              success reports, and verification that CS provided
                                                                            agencies, including key U.S. government offices and
              value-added assistance.
                                                                            nongovernmental organizations. The report discusses
                                                                            challenges posed by the post’s management structure
                                                                            and allocation of office resources, and the need to
              Interagency Trade Coordination                                develop measurable long-term goals for the standards
                                                                            and intellectual property attachés recently posted to
              In response to a request from members of the U.S.             Brazil. We found that the post responded to budget
              House of Representatives, including the then-                 cuts by adjusting its programmatic priorities, and we
              chairman of the Small Business Committee, we                  are concerned that this may impact its overall
              reviewed various aspects of Commerce’s trade                  performance and delivery of products and services.
              promotion efforts and the coordination of those
              efforts among various offices within Commerce and             In general, we found the post’s financial and
              with other federal and state agencies and other trade         administrative operations are sound. However, our
              partners. We found effective collaboration on trade           report identifies some discrepancies in ITA and CS


                                                                       13
OIG SAR 5-22-07   5/23/07   2:55 PM    Page 14




              Major Challenges for the Department                                                           March 2007—Semiannual Report to Congress



              accounting reports for the post and some                                    Challenge 8
              administrative policies that were not being followed.
              We also continued to see some questionable export                           Effectively Manage NOAA’s
              success claims that do not appear to contribute to CS’
              mission to promote U.S. exports. (See page 33.)
                                                                                          Stewardship of Ocean and Living
                                                                                          Marine Resources
                                                                                          The National Oceanic and Atmospheric
                                                                                          Administration is charged with monitoring the
                                                                                          health of our nation’s ocean, coastal, and Great Lakes
                                                                                          resources; administering civilian ocean programs; and
                                                                                          protecting and preserving the nation’s living marine
                                                                                          resources through scientific research, fisheries
                                                                                          management, enforcement, and habitat conservation.
                                                                                          NOAA spends billions of dollars each year
                                                                                          supporting a vast array of programs designed to
                                                                                          protect and enhance these resources that “are critical
                                                                                          to the very existence and well-being of the nation and
                                                                                          its people.”4 These are programs that require long-
                                                                                          term commitments and years of funding to show
                                                                                          their full effect. During this semiannual period we
                                                                                          continued our look at one such program, salmon
                                                                                          recovery, wrapping up a series of audits of NOAA-
                                                                                          funded projects operating in the Pacific Northwest.

                                                                                          We reviewed the administration of a 5-year,
                                                                                          $27.4 million grant to fund salmon recovery projects
                                                                                          in Washington state to assess whether the grantee was
                                              www.geology.com/world/brazil-map.gif        properly managing a number of project subgrants.
                                                                                          Our initial fieldwork disclosed inadequate policies
              During the upcoming semiannual period, OIG plans                            and procedures for awarding subgrants and
              to continue its review of Commerce’s trade                                  monitoring funded projects, which prompted us to
              promotion efforts, including the Department’s                               conduct audits of nine project subgrants. Our
              preparation of the National Export Strategy and the                         recently concluded audit of the grantee revealed that
              involvement of other federal agencies in that effort.                       some processes had improved, but serious deficiencies
              We will also continue our review of Commerce’s                              remain, particularly in the area of fund
              actions taken in response to the recommendations of                         administration. (See page 45.)
              our recent reports on CS operations at Asian and
              South American posts. We may also look at the                               Along the same lines, during the next semiannual
              Department’s efforts to increase exports to countries                       period, we plan to initiate additional audits of NOAA
              that have recently signed trade promotion agreements                        financial assistance programs and award recipients.
              with the United States.                                                     For example, we will look at the Fisheries Finance
                                                                                          Loan Program, operated by NOAA’s National Marine
                                                                                          Fisheries Service. This program provides financing
                                                                                          for the purchase or reconstruction of used fishing
                                                                                          vessels that will not add capacity to regulated
                                                                                          fisheries. Our audit will evaluate NMFS’

                                                                                          4
                                                                                              U.S. Commission on Ocean Policy



                                                                                     14
OIG SAR 5-22-07   5/23/07       2:55 PM       Page 15




              March 2007—Semiannual Report to Congress                                                                Major Challenges for the Department



              management of the loan program and assess whether                                 The Consultation Process
              the program advances the complementary goals of
              ending overfishing and rebuilding fisheries.                                      Section 7 of the Endangered Species Act requires
                                                                                                federal agencies to consult with NOAA about any
                                                                                                activity they plan to undertake that may affect listed
                                                                                                species. In July 2005, we issued a report on NOAA’s
                                                                                                consultation process for a biological opinion, in
                                                                                                which we found that NOAA deviated from its
                                                                                                normal quality control practices, and was criticized as
                                                                                                having acted arbitrarily or inappropriately (see
                                                                                                September 2005 Semiannual Report, page 21). We
                                                                                                plan to follow up on actions NOAA has taken to
                                                                                                improve its review process.




                                                                                                Challenge 9
                                                                                                Aggressively Monitor Emergency
                                                                                                Preparedness, Safety, and Security
                                                                                                Responsibilities
                                                                                                The Department of Commerce has more than
                                                                                                35,000 employees and hundreds of facilities it must
                                                                                                keep safe. As a cabinet-level Department, it also has a
              www.nwr.noaa.gov/Salmon-Recovery-Planning/PCSRF/upload/ PCSRF-Rpt-2006.pdf        number of programs critical to national preparedness
                                                                                                and recovery efforts, and it must support U.S. efforts
              We are also preparing to initiate reviews of programs                             to prepare for, respond to, and promote recovery
              in other stewardship areas, as follows:                                           from major disasters.

              National Marine Sanctuary Program                                                 We continue to monitor Commerce’s progress in
                                                                                                resolving departmental emergency preparedness and
              This program is charged with managing areas of the                                security weaknesses. As of February 2007, the
              marine environment that have special national                                     Department had addressed virtually all of the
              significance because of their conservation, historical,                           outstanding recommendations from our 2002 and
              or scientific qualities. It encompasses one coral reef                            2005 reviews of its emergency preparedness efforts.
              ecosystem reserve and 13 marine sanctuaries,                                      Despite this progress, a dynamic security environment
              including the Northwestern Hawaiian Islands                                       will continue to challenge the Department as it seeks
              Marine National Monument, which is the world’s                                    to maintain effective oversight of emergency programs
              largest marine conservation area. Managing the                                    and plans, identify and mitigate security
              sanctuaries presents significant challenges to NOAA,                              vulnerabilities, and protect critical assets.
              as it must balance commercial interests with
              conservation and research activities, and coordinate                              During this semiannual period, we worked closely
              its efforts with the Coast Guard, the Department of                               with the Defense Intelligence Agency to develop a
              Interior, and others.          We are initiating a                                guide for evaluating emergency preparedness
              comprehensive review of the program during the next                               programs for the Inspection and Evaluation
              semiannual period.                                                                Committee of the President’s Council on Integrity



                                                                                           15
OIG SAR 5-22-07   5/23/07   2:55 PM    Page 16




              Major Challenges for the Department                                             March 2007—Semiannual Report to Congress



              and Efficiency (PCIE). The guide was designed to be
              a tool for reviewing agency emergency preparedness
              at the local, state, and federal levels.




                                                                                                                                            NWS
                                                                            September is traditionally a month of little tornadic activity in
                                                                            Minnesota. But the unannounced F-2 tornado that hit Rogers
                                                                            severely damaged scores of homes, such as the one above, and left
                                                                            one child dead.



                                                                            During the next 6 months, we plan to review
                                                                            NOAA’s National Data Buoy Center and the
                                                                            National Weather Service’s other buoy and coastal
                                                                            monitoring station operations that are part of the
                                                                            nation’s weather monitoring and forecasting system.
                                                                            Such operations play a critical role in the
                                                                            Department’s efforts to enhance the United States’
                                                                            emergency preparedness by supporting NWS’ ability
                                                                            to provide advance notification of severe weather
                                                                            events to state and local officials and the public.

              Also during this period, we responded to a request
              from then-Senator Mark Dayton (D-Minnesota) to
              examine NWS’ actions in connection with a                     Challenge 10
              powerful tornado in Rogers, Minnesota, that killed a
              child and injured six other people in September. We           Enhance Export Controls for
              were also asked to evaluate the agency’s policies and         Dual-Use Commodities
              technological capabilities for forewarning the public.
              In our response to the Senator’s inquiry, we reported         Protecting U.S. national and economic security
              that the Chanhassen Weather Forecasting Office, the           through export controls is a challenge that grows
              NWS Central Region Office, and the Storm                      constantly more complex for federal agencies such as
              Prediction Center generally followed agency policies          Commerce’s Bureau of Industry and Security. BIS is
              for handling severe weather events and have what is           responsible for the federal government’s export
              considered to be the best available technology for            licensing and enforcement system for goods and
              reading weather conditions. But at the same time, we          technologies with both civilian and military uses.
              noted several factors that may have adversely
              impacted Chanhassen’s handling of the situation               During this semiannual period, we completed our
              and that warrant close management attention.                  final National Defense Authorization Act review, this
              (See page 41.)                                                time looking at the effectiveness of U.S. controls on
                                                                            dual-use exports to India—a country that presents
                                                                            unique challenges for U.S. commercial interests and
                                                                            export control policy. Although India is recognized as


                                                                       16
OIG SAR 5-22-07   5/23/07      2:55 PM      Page 17




              March 2007—Semiannual Report to Congress                                                               Major Challenges for the Department



              a democratic partner in the fight against terrorism                               Our 2007 review assessed (1) whether BIS’ export
              and as a counterbalance to China, U.S.                                            control policies, practices, and procedures for India
              nonproliferation specialists are concerned about its                              are clear, documented, and designed to achieve the
              nuclear capabilities and intentions. As current U.S.                              desired goals; (2) whether BIS personnel were
              policy moves toward full civil nuclear cooperation                                following the prescribed policies, practices, and
              with India, it is essential that the U.S. government                              procedures relating to India; and (3) how effective
              have effective export controls.                                                   BIS was in detecting and preventing the diversion of
                                                                                                sensitive commodities to weapons of mass
                                                                                                destruction-related programs within or outside India.
                                                                                                While the license application review process was
                                                                                                working adequately, we identified a number of
                                                                                                weaknesses in BIS’ administration of export controls
                                                                                                for India and recommended a series of actions to
                                                                                                resolve them. (See page 19.)

                                                                                                Although this review concludes our statutory
                                                                                                reporting requirements under NDAA, we will
                                                                                                continue to monitor BIS’ efforts to implement and
                                                                                                enforce dual-use export controls, follow up on our
                                                                                                previous NDAA recommendations, and report on
                                                                                                BIS’ progress in implementing them.
                                          Edgewood Chemical Biological Center, U.S. Army
              This nuclear magnetic resonance imager is among a host of
              advances made possible by nuclear technologies that have
              revolutionized medical diagnostics and treatment. With greater
              access to such technologies from the U.S., India plans to expand its
              nuclear medicine capacity and a variety of other civilian programs.




                                                                                           17
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 18
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 19




                                 BUREAU OF INDUSTRY

                                    AND SECURITY


              T    he Bureau of Industry and Security is primarily responsible for administering and enforcing the nations’
                   system for controlling exports of sensitive dual-use goods and technologies. BIS’ major functions include
              formulating and implementing export control policy; processing export license applications; conducting
              various policy, technical, and economic analyses; promulgating regulations; conducting industry outreach; and
              enforcing the Export Administration Act and regulations. BIS is divided into two units:
                   Export Administration implements U.S. export control and nonproliferation laws and policies through
                   export licensing, commodity classifications, and advisory opinions; technical, economic, foreign
                   availability, and policy analyses; promulgation of regulations; and industry outreach. It also conducts
                   various defense industry activities and enforces industry compliance with arms control treaties.
                   Export Enforcement participates in reviews of export license applications and conducts criminal and
                   administrative investigations relating to the export control portions of the Export Administration Act and
                   regulations. It also administers and enforces the antiboycott provisions of the act and regulations.




              Final NDAA Review Highlights                               diversion of sensitive commodities to programs for
                                                                         weapons of mass destruction.
              Some Concerns About Export
              Control Program with India                                 In 2001, the United States eliminated economic
                                                                         sanctions against India and committed to broadening
              To meet the FY 2007 (and final) requirement of             economic ties and expanding bilateral cooperation on
              the National Defense Authorization Act of 2000,            counterterrorism, security, space and scientific
              we evaluated the effectiveness of dual-use controls        pursuits, and civilian nuclear safety. To foster this
              over exports to India. Specifically, we assessed           cooperation, BIS established the U.S.-India High
              whether BIS’ export control policies, practices,           Technology Cooperation Group in 2002 as a forum
              and procedures regarding India are clear,                  for discussing high-tech issues of mutual interest. In
              documented, and prevent the export of U.S.                 2004, the United States and India announced the
              products that could contribute to India-sponsored          Next Steps in Strategic Partnership (NSSP)—an
              nuclear weapons or missile programs; whether BIS           agreement to increase cooperation in civilian nuclear
              personnel follow the policies and procedures; and          activities, space programs, and high-tech trade, as
              how well the agency detects and prevents the               well as expand the U.S.-Indian dialogue on missile



                                                                    19
OIG SAR 5-22-07   5/23/07    2:55 PM    Page 20




              Bureau of Industry and Security                                               March 2007—Semiannual Report to Congress



              defense. The initiative was to proceed through a series         Arrangement, a 2004 accord between Commerce and
              of reciprocal steps that addressed nuclear safety issues        the Indian Ministry of External Affairs, limits the
              and regulatory changes to enhance trade in primarily            checks’ effectiveness and utility. And checks involving
              high-tech dual-use goods. BIS helped evaluate and               Indian government or government-affiliated entities
              implement the steps related to export control.                  are often not completed within prescribed deadlines.
                                                                              BIS has not set clear and consistent time frames for
              As the steps were completed, the U.S. government                when to initiate post-shipment verifications once
              removed various licensing requirements for dual-use             required shipping documents are received, and when
              items destined for India. In July 2005, President               to notify the Ministry of External Affairs about end-
              Bush and the Indian prime minister announced the                use check requests. We also found instances in which
              NSSP was completed. Because of the decrease in                  BIS did not follow its own end-use check criteria and
              license requirements, applications for exports to India         cancelled two pre-license checks instead of classifying
              dropped by 19 percent between 2005 and 2006, after              them as unfavorable. And the agency did not
              years of being on the rise.                                     adequately target post-shipment verifications to help
                                                                              determine whether diversions were occurring.
              Our review of U.S.-India export control activities
              found that BIS’ interagency license application
              review process was working adequately, but we
              identified the following concerns:

              Dual-Use Export Control Policies
              and Procedures for India Are Not
              Fully Transparent

              Though the NSSP has officially concluded, some
              U.S. nonproliferation experts question whether the
              government of India ever fully implemented two of
              the export control-related steps. And we found that
              subsequent changes to the way BIS presents Indian
              organizations on its Entity List have made it difficult
              to identify some of them. As a result, these entities
              could mistakenly receive controlled dual-use items
              from U.S. exporters who did not realize the
              transaction required a license.

              End-Use Check Program in India Needs to
              Be Improved                                                                                   www.geology.com/world/india-map.gif


              End-use checks are intended to verify the legitimacy
              of dual-use export transactions controlled by BIS.              BIS Needs to Better Ensure Compliance with
              There are two types of checks: pre-license checks               License Conditions
              determine if an overseas person or firm is a suitable
              recipient for the item; post-shipment verifications             The Export Administration Regulations allow BIS to
              determine whether U.S. exports were actually                    place conditions on an export license when the
              received by the party named on the license and are              agency has specific concerns about the exporter, end
              being used in accordance with the license provisions.           use, or end user. These conditions offer an additional
                                                                              means for monitoring certain shipments as the
              Our review of BIS’ India end-use check program                  agency checks to see that license holders comply with
              identified several weaknesses: the End-Use Visit                all requirements. BIS’ Export Administration and


                                                                         20
OIG SAR 5-22-07   5/23/07     2:55 PM    Page 21




              March 2007—Semiannual Report to Congress                                                      Bureau of Industry and Security



              Export Enforcement units share responsibility for                    ■	   Improve Export Administration’s license
              ensuring conditions are met and for keeping BIS                           monitoring efforts by, among other things,
              informed of the status of these licenses. Prior OIG                       determining why the process for monitoring
              work revealed that monitoring licenses with                               conditions has persistent breakdowns;
              conditions was handled inconsistently, which made it                      reviewing a sample of license applications to
              difficult to know whether exporters or end users were                     ensure they are properly marked for follow-up;
              complying. In response to these findings, over the                        and amending BIS procedures to require
              past few years, both units have put procedures in                         licensing officers to review all technical
              place to standardize their efforts, but our review of                     documentation submitted by exporters or end
              India cases indicated that weaknesses remain.                             users, even when conditions are set by Defense.

                   ■	   For 5 of 13 India licenses with reporting                  ■	   Improve Export Enforcement’s license-related
                        conditions that we reviewed, licensing officers                 efforts by requiring the Office of Enforcement
                        within Export Administration did not properly                   Analysis to closely monitor licenses at specified
                        mark them for follow-up to verify that the                      follow-up points in the process, document
                        conditions were met.                                            these activities in its Conditions Follow-up
                                                                                        database, and recommend rejecting future
                   ■	   Licensing officers are not required to review a                 license applications from exporters who
                        license’s technical documentation when the                      are required to submit shipper’s export
                        Defense Department—not BIS—is the source                        declarations as a condition of existing licenses
                        of the reporting conditions. However, BIS has                   but do not.
                        authority to enforce Export Administration
                        Regulations and is ultimately responsible for
                        monitoring all conditions, regardless of who           Agency Response
                        establishes them. Ten of the 13 licenses that
                        required the submission of technical                   In its response to the unclassified section of our
                        documentation were not marked for and did              report, BIS commented that it believes India has
                        not receive licensing officer review because           fulfilled its commitments under the strategic
                        Defense had placed the technical reporting             partnership agreement. The bureau said it will assess
                        condition on the license.                              the categorization of Indian entities on the Entity
                                                                               List to determine how to provide additional
              Export Administration staff were not fully aware of              information to exporters. BIS disagreed with several
              which reporting requirements they were supposed to               of our findings concerning end-use visits, but did
              monitor and were not referring noncompliant                      agree to complete a review by April 30, 2007, of our
              exporters to Export Enforcement.                                 seven recommended ways to improve license
                                                                               monitoring efforts.

              Our Recommendations                                              BIS also stated it was reviewing our recommendation
                                                                               related to Export Enforcement’s license monitoring
              We made numerous recommendations to address our                  and enforcement efforts to determine whether it can
              concerns related to the Entity List and BIS’ license             be implemented using the current license processing
              monitoring and enforcement efforts, among them                   system (ECASS), or if some alternative approach is
              the following:                                                   necessary. The response also noted that there are
                                                                               many factors that need to be considered before
                   ■	   Revise the Entity List to present all Indian           determining whether an exporter should be held
                        entities by name, or determine some other way          accountable (i.e., subsequent licenses denied or
                        to ensure that exporters know which Indian             investigative referrals made) for not fully complying
                        entities are meant to be captured on the list.         with license conditions. In addition, BIS provided
                                                                               comments on the findings and recommendations in


                                                                          21
OIG SAR 5-22-07   5/23/07    2:55 PM    Page 22




              Bureau of Industry and Security                                             March 2007—Semiannual Report to Congress



              the classified sections of our report. (Office of             whether the various agencies involved in the export
              Inspections and Program Evaluations: IPE-18144)               license review process share data and information
                                                                            and whether the dispute resolution process between
                                                                            the agencies works. We reviewed BIS’ interactions
                                                                            with the Australia Group, and procedures for placing
              Steady Progress Noted in NDAA                                 newly controlled items on the Commerce Control
                                                                            List. We made 11 recommendations to BIS and 2
              Follow-up                                                     remain open. Those open involve providing clear
                                                                            guidance and more information for licensing
              The National Defense Authorization Act of 2000, as            officers, and developing a method to track the
              amended, requires the Office of Inspector General to          cumulative effect of dual-use exports.
              report annually to Congress on the status of export
              control recommendations made in prior-year OIG
              reviews. This year’s follow-up covered annual reviews                     Prior NDAA Reviews
              dating back to 2000. We found that the Department
              closed several recommendations during the past year,           March 2000, Improvements Are Needed in
              but a total of 20 remain open, including 1 we                  Programs Designed to Protect Against the Transfer of
              reopened from our March 2003 report. Only the                  Sensitive Technologies to Countries of Concern
              March 2000 and 2001 reports have no outstanding                (IPE-12454)
              recommendations.
                                                                             March 2001, Management of the Commerce
                                                                             Control List and Related Processes Should Be
              March 2006                                                     Improved (IPE-13744)
              This review examined (1) BIS’ export control                   February 2002, BXA Needs to Strengthen its
              policies, practices, and procedures regarding China to         ECASS Modernization Efforts to Ensure Long-Term
              determine if they are consistent with relevant laws            Success of the Project (IPE-14270)
              and regulations; (2) coordination among federal
                                                                             March 2002, Interagency Review of Federal
              agencies during the dispute resolution process for
                                                                             Automated Export Licensing Systems (D-2002-074)
              export license applications involving China; (3) the
              potential for diversion of sensitive commodities from          March 2003, Improvements Are Needed to Better
              Hong Kong to China; and (4) BIS’ end-use check                 Enforce Dual-Use Export Control Laws
              program in China and Hong Kong. We also looked                 (IPE-15155)
              at what activities Commerce bureaus are engaged in
                                                                             March 2004, Deemed Export Controls May Not
              pursuant to the 1979 U.S. and China Science and
                                                                             Stop the Transfer of Sensitive Technology to Foreign
              Technology Agreement and whether they are
                                                                             Nationals in the U.S. (IPE-16176)
              adhering to export control regulations. We made nine
              recommendations to address the issues we identified.           March 2005, The Export Licensing Process for
              Eight remain open.                                             Chemical and Biological Commodities Is Generally
                                                                             Working Well, But Some Issues Need Resolution
              March 2005                                                     (IPE-16946)
                                                                             March 2006, U.S. Dual-Use Controls for China
              We evaluated the U.S. export licensing process for
                                                                             Need to Be Strengthened (IPE-17500)
              chemical and biological commodities to determine
              whether current practices and procedures deter the
              proliferation of chemical and biological weapons.
              We looked at whether the process is timely, complies          March 2004
              with statutory and regulatory requirements, and
              takes the cumulative effect of prior technology               This review looked at whether current deemed export
              transfers into consideration. We also assessed                control laws and regulations adequately protect



                                                                       22
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 23




              March 2007—Semiannual Report to Congress                                                  Bureau of Industry and Security



              against the transfer of controlled U.S. technologies to         adequate funding, and determining system and
              foreign nationals from countries and entities of                security requirements.
              concern while they are in the United States. We made
              a total of 20 recommendations: 7 each to BIS and                March 2002
              NIST, 5 to NOAA, and 1 to the Office of the
              Secretary. These mainly pertained to recommended                In addition to the February report we issued on BIS,
              revisions in export control regulations and policies, as        the interagency OIG review team issued a report that
              well as bureau compliance with licensing                        contained four recommendations for the bureau.
              requirements. During this reporting period, 1                   One remains open—that BIS should establish a
              recommendation made to BIS was closed. Two                      common repository for all unclassified licensing
              remain open.                                                    data records. (Office of Inspections and Program
                                                                              Evaluations: IPE-18546)
              NOAA took action to close its remaining
              recommendation. NIST and the Office of the
              Secretary each have one unresolved recommendation.

              March 2003
                                                                              OIG Revisits March 2000
                                                                              Findings on Committee on
              This review made 55 recommendations to BIS and 4                Foreign Investment in the
              to ITA regarding their efforts to enforce export
              control laws and regulations, including those                   United States
              involving investigative processes, interactions with
              other law enforcement agencies and the intelligence             The highly publicized purchase by Dubai Ports
              community, license determinations, monitoring of                World of a British firm that managed key U.S. ports
              compliance with license conditions, outreach to U.S.            was one of several recent events that renewed
              exporters, and end-use checks. As of last year, all ITA         congressional scrutiny of the Committee on Foreign
              recommendations were closed, and BIS had resolved               Investment in the United States (CFIUS), a
              53 recommendations. This year, BIS took action to               multiagency body chaired by the Secretary of the
              resolve 1 of the remaining 2, which dealt with                  Treasury that monitors foreign investment in U.S.
              dissemination of pre-license check results to licensing         companies. Our March 2000 NDAA report
              referral agencies. We do not believe that BIS’ actions          examined CFIUS activities, among other things, and
              fully met the intent of our recommendation, but                 raised questions about the effectiveness of the overall
              agreed to close it because the referral agencies have           CFIUS decision-making process. Our primary
              access to the information through other means. In               concerns at that time were the lack of mandatory
              addition, information we uncovered during our FY                foreign investment reporting—notifying CFIUS of
              2006 follow-up prompted us to reopen a                          an acquisition or investment was voluntary—and the
              recommendation we had closed last year relating to              small number of investigations conducted on
              BIS’ cooperation with the U.S. Postal Service to                company filings. We also noted the potential for a
              preclude use of the mail to circumvent export control           perceived conflict of interest in the control of
              laws. Because we have reinstated this                           committee actions because Treasury’s Office of
              recommendation, BIS still has 2 issues to resolve.              International Investment, which oversees CFIUS, has
                                                                              dual responsibility for promoting foreign investment
              February 2002                                                   and preventing it when national security concerns
                                                                              arise. Finally, our report highlighted some issues
              In this report, we focused on BIS’ plans for and                involving Commerce’s process for reviewing CFIUS
              progress toward modernizing its Export Control                  filings, including (1) whether the lead responsibility
              Automated Support System for dual-use export                    for the program should remain in ITA, the
              licensing. Three of our 13 recommendations remain               Department’s primary trade promotion agency, or be
              open. These involve identifying and securing                    moved to BIS, our primary national security agency,


                                                                         23
OIG SAR 5-22-07    5/23/07     2:55 PM   Page 24




              Bureau of Industry and Security                                             March 2007—Semiannual Report to Congress



              and (2) whether BIS’ export enforcement and export            Update on FY 2000 Findings
              licensing units should play a larger role in reviewing
              CFIUS filings.                                                Lack of Mandatory Foreign
                                                                            Investment Reporting
              During this semiannual period, we revisited these
              findings and noted improvements that in our view
                                                                            Treasury and Commerce officials reported that the
              have enhanced coordination among the various
                                                                            number of filings has increased dramatically in the
              agencies on the committee and made Commerce’s
                                                                            past year, as U.S. and foreign firms are now more
              decision-making process more transparent. But we
                                                                            aware of the CFIUS process since the Dubai Ports
              still have concerns about several aspects of the CFIUS
                                                                            World acquisition. But foreign investment reporting
              activities discussed in our 2000 review.
                                                                            is still voluntary—neither Congress nor the
                                                                            administration has proposed mandatory filing since
                                                                            2000. And despite the increased number of filings,
                    Committee on Foreign Investment                         we still question whether CFIUS is receiving
                         in the United States                               information—and whether that information is
                                                                            timely—about all acquisitions and mergers that pose
                  CFIUS was established by Congress in 1975 for             potential security concerns, especially those involving
                  the purpose of monitoring and evaluating the              small or medium-sized U.S. companies that
                  impact of foreign investment in the United States.        manufacture or conduct research on sensitive
                  A 1988 amendment to the Defense Production                U.S. technologies.
                  Act of 1950 expanded the committee’s
                  responsibilities and gave the President authority         Few Investigations
                  to suspend or prohibit any foreign acquisition,
                  merger, or takeover of a U.S. company that                The number of investigations has increased since our
                  threatens national security.                              March 2000 report—from 1 percent of filings in
                                                                            2000 to 6 percent in 2006. But because the number
                  Twelve agencies sit on the committee:                     of filings nearly doubled between 2005 and 2006, the
                     ■   U.S. Treasury (chair)                              statistics alone cannot tell us whether the increase
                                                                            signifies greater vigilance by the committee or merely
                     ■   Department of Commerce
                                                                            an expected proportional rise in investigations.
                     ■   Department of Defense
                     ■   Department of Justice                              Potential for Perceived Conflict of Interest
                     ■   State Department
                                                                            While the lead responsibility for CFIUS remains with
                     ■   Office of Management and Budget
                                                                            Treasury’s Office of International Investment, both
                     ■   Department of Homeland Security                    Treasury and Commerce officials reported that the
                     ■   Council of Economic Advisors                       committee now operates on a consensus basis. In
                     ■   National Economic Council                          addition, CFIUS now reports all decisions to
                                                                            Congress, though it is only required to report those
                     ■   National Security Council                          made by the President.
                     ■   Office of Science and Technology Policy
                     ■   U.S. Trade Representative                          Change in CFIUS Responsibility
                                                                            Within Commerce

                                                                            We recommended in 2000 that lead responsibility for
                                                                            CFIUS within Commerce move from ITA to BIS,
                                                                            given the latter agency’s national security mission.
                                                                            While we still believe that this arrangement is more



                                                                       24
OIG SAR 5-22-07   5/23/07   2:55 PM    Page 25




              March 2007—Semiannual Report to Congress                                                   Bureau of Industry and Security



              appropriate, it appears the current Commerce process             Interagency Review of Export
              and interactions between the two agencies are going
              well. In our update report, we recommend that ITA                Controls for China Finds Policy,
              work with BIS and other relevant bureaus to develop              Procedural Weaknesses
              written procedures documenting the specific CFIUS
              roles and responsibilities of each and detailing                 IGs from Commerce, Defense, Energy, Homeland
              methods for ensuring continued cooperation.                      Security, State, and the CIA issued their FY 2006
                                                                               NDAA interagency report on the effectiveness of
              BIS’ Internal Review of CFIUS Notifications                      controls for exports to China during this semiannual
                                                                               period, noting the need for policy and process
              BIS has taken steps to ensure that licensing and                 improvements at several of the participating agencies.
              enforcement experts are reviewing notifications
              involving entities of concern and has developed
              written procedures to reflect this protocol. During our
              follow-up, we also found that BIS will be responsible
              for monitoring the export control provisions of two
              mitigation agreements involving sensitive acquisitions
              that it helped negotiate. Our update report
              recommends that BIS finalize and implement written
              procedures that outline how it will monitor and
              enforce the dual-use export control provisions of
              mitigation agreements entered into by CFIUS.

              Interagency Review

              Our March 2000 report suggested that an
              interagency review of the CFIUS process, conducted
              by OIGs from the departments of Commerce,
              Defense, and the Treasury, may be warranted, as a
              part of our responsibilities under the FY 2000
              National Defense Authorization Act. The Treasury
              and Defense IGs concurred with our suggestion, but
              other priorities prevented this review from taking
              place. We still believe such a review is necessary to (1)
              identify problems posed by investments involving
              countries and entities of concern and U.S. companies
              with sensitive technologies; (2) assess the overall              At Commerce, our assessment focused on BIS’
              effectiveness of CFIUS; and (3) recommend                        involvement in regulating exports to China. (See
              improvements, as necessary, to the way the U.S.                  March 2006 Semiannual Report to Congress, page 13.)
              government monitors foreign investment in these                  We determined that the bureau’s related control
              companies. (Office of Inspections and Program                    policies, practices, and procedures needed to be
              Evaluations: IPE-18546)                                          strengthened, as did end-use checks and monitoring
                                                                               of compliance with licensing conditions.

                                                                               The Defense, State, and CIA inspectors general noted
                                                                               weaknesses in various aspects of their agency’s
                                                                               licensing process: Defense does not adequately
                                                                               document its analysis of license applications and
                                                                               related decisions. State’s licensing policies and



                                                                          25
OIG SAR 5-22-07   5/23/07    2:55 PM    Page 26




              Bureau of Industry and Security                                             March 2007—Semiannual Report to Congress



              procedures for the commercial export of defense                and regulations. The IG found a limited connection
              items are ineffective. The CIA does not fully meet             between the two.
              State’s required time frames for reviewing dual-use
              export license applications involving Chinese end-             The interagency team made no joint
              users or intermediaries.                                       recommendations this year. But each OIG offered
                                                                             specific recommendations to resolve the weaknesses
              The Homeland Security IG evaluated the export                  within its own agency. (Departments of Commerce,
              screening process conducted by Immigration and                 Defense, Energy, Homeland Security, State, and the
              Customs Enforcement to determine the extent to                 CIA: D-2007-050)
              which the process led to arrests for violations of laws




                                                                        26
OIG SAR 5-22-07   5/23/07     2:55 PM     Page 27




                            ECONOMIC DEVELOPMENT

                               ADMINISTRATION


              T    he Economic Development Administration was established by the Public Works and Economic
                   Development Act (PWEDA) of 1965 to generate new jobs, help retain existing jobs, and stimulate
              private investment in economically distressed regions of the United States. EDA continues to fulfill this
              mission under the authority of PWEDA, as amended by the Economic Development Reauthorization Act
              of 2004. Based on local and regional comprehensive economic development strategies, EDA works in
              partnership with state and local governments, regional economic development districts, public and private
              nonprofit organizations, and Indian tribes to help distressed communities address problems associated with
              long-term economic deterioration and sudden and severe economic dislocations, including recovery from
              the economic impact of natural disasters, the closure of military installations and other federal facilities,
              changes in trade patterns, and the depletion of natural resources. EDA provides eligible recipients with
              technical assistance, as well as grants for public works, planning, training and research, and economic
              adjustment assistance.




              Revolving Loan Fund Program:                                             But the RLF program has had a troubled history. In
                                                                                       50 audits of individual recipients conducted by OIG
              Weak Agency Oversight,                                                   since 2001, we found the same problems repeatedly:
              Persistent Problems, and Millions                                        grantees retained too much cash in their loan funds,
                                                                                       did not comply with federal auditing and reporting
              in Funds to Be Put to Better Use                                         requirements, charged unallowable costs to the RLF,
              In the summer and fall of 2006, we audited EDA’s                         did not adequately document lending decisions, and
              revolving loan fund (RLF) program—which since                            filed inaccurate financial reports. EDA management
              1975 has given millions of dollars in grants to state,                   has long recognized the program’s deficiencies, and in
              local, and regional development entities that in turn                    1999 had established a task force to study the
              offer low-interest business loans to generate jobs in                    problems and recommend improvements.
              distressed communities. Huge sums of money are
              involved in the program: in June 2003, EDA                               The task force found that the RLF reporting process
              estimated that there were more than 600 active RLF                       needed major improvements because it was
              grants whose combined federal and nonfederal                             cumbersome for grantees and not particularly
              investment totaled approximately $1 billion.5                            effective for EDA in tracking program activity. The
                                                                                       task force also found that grantee reports often did
              5
               RLF funds retain their federal character in perpetuity. In other
              words, the grant recipient’s obligation to the federal government        not receive ample scrutiny at the regional level
              continues as long as the RLF assets exist.                               because staff was spread too thin. These findings


                                                                                  27
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 28




              Economic Development Administration                                           March 2007—Semiannual Report to Congress



              underlie many of the weaknesses consistently                    deficient, the result of a void in program leadership
              disclosed in our audits of individual grantees. The task        and direction from senior agency officials. We also
              force concluded that electronic reporting was essential         found that EDA does not know the current value of
              to improving the overall program and recommended                the RLF portfolio. Our analysis of program assets as
              that EDA develop a web-based grantee reporting                  of September 2005 identified $716 million,
              system. To this day, no such system exists.                     compared with EDA’s 2003 estimate of $1 billion.
                                                                              Among the specific management failings we found
              In 2003, as our audits continued to find major                  are the following:
              problems with recipients’ accountability for funds,
              EDA’s then-Assistant Secretary testified before                 EDA Does Not Ensure Efficient Capital
              Congress that the agency needed to implement                    Utilization by RLF Grantees
              critical management reforms.
                                                                              EDA requires grantees to keep a certain percentage
                                                                              (typically 75 percent) of total RLF dollars loaned
              Systemic Management Weaknesses,                                 out. When grantees routinely fail to meet these
                                                                              capital utilization rates, EDA may direct the
              Funding Discrepancies Remain                                    recipient to sequester the excess funds—that is,
              Unresolved                                                      deposit the funds in an interest-bearing account,
                                                                              periodically remit the government’s portion of the
              Our current work looked at the overall RLF program              interest to the U.S. Treasury, and obtain EDA
              to determine what, if any, improvements have been               approval to withdraw sequestered funds from the
              made. We assessed EDA’s handling of the problems                account. In cases of persistent noncompliance, EDA
              identified in our audits of individual recipients, its          may terminate the fund and transfer the assets to
              record of general oversight, and the effectiveness of           other RLF recipients or back to Treasury. Despite the
              program administration by EDA regional offices. We              importance of this process, agency regulations do
              also analyzed current levels of cash in RLFs, and the           not contain clear criteria for making many of the
              extent to which EDA uses single audit reports to                determinations necessary for sequestration decisions.
              monitor grantees’ RLF administration. Our audit                 As a result, practices are inconsistent across EDA
              period covered RLF operations and related activity              regions, ranging from recovery of funds without any
              occurring from September 2004 through September                 period of sequestration to sequestration for extended
              2005 in six EDA regions, with a limited look at 2006            periods of time.
              data on recipients’ annual reporting and EDA’s
              sequestration of unused funds.                                  Using the 75 percent utilization rate, we calculated
                                                                              excess cash from the reported fund balances and cash
              We found that little has changed in the RLF                     available amounts in all grantee financial reports
              program. EDA management continues to be                         submitted for the period ending September 30, 2005,

              Table 1. RLF Excess Cash and Fund Balance at September 30, 2005




                                                                         28
OIG SAR 5-22-07   5/23/07   2:55 PM    Page 29




              March 2007—Semiannual Report to Congress                                                Economic Development Administration



              and determined that 236 of 529 recipients had a                   any documentation to support the removal. We
              combined total of $70.3 million in excess cash;                   could find no record of the status of the remaining 53
              $56.6 million of this amount represented the federal              nonreporting RLFs. EDA subsequently produced
              share (see table 1). The actual amount is likely                  2006 reports for 31 of the 78, but it had no
              higher, as there were no reports filed for 78 RLFs.               information about the status of the other 47.
              The total amount eligible for sequestration was                   Without complete information, the agency cannot be
              $44.4 million, but only $14.6 million had been                    certain of the value of the RLF portfolio or monitor
              sequestered. For 116 of the 236 recipients, this was              its investment.
              the second consecutive reporting period in which
              they had maintained excess cash.                                  Finally, we found that EDA does not routinely obtain
                                                                                and review single audit reports, which by law must be
              EDA Does Not Ensure Grantee Compliance                            prepared by independent auditors and filed with the
              with Reporting Requirements and Does Not                          Federal Audit Clearinghouse for RLFs whose annual
              Have an Adequate Tracking System                                  federal expenditures are $500,000 or more. EDA
                                                                                should review all single audit reports prepared for
              RLF grantees are required to submit annual or                     RLF grant recipients, both to check the status and
              semiannual reports detailing loan activities 30 days              stability of individual RLFs, and to verify that the
              after the end of the reporting period. These reports              audits are being conducted as required.
              are one of the critical tools EDA has for monitoring
              the status of the program. But of the 607 grantees we
              examined with reports due September 30, 2005, 78                  Recommendations
              were never received and 126 of those received were
              filed late by anywhere from 31 to more than 90 days.              We recommended, among other things, that the
              Because EDA has no standard procedures for                        Assistant Secretary for Economic Development and
              monitoring grantee compliance, regional offices have              EDA senior officials enhance the RLF program’s
              different practices and different levels of                       effectiveness by developing the following:
              commitment to ensuring they receive the reports on
              time or at all. All regional offices had problems with                ■	   A strategy and plan of action for identifying
              late reporting. Atlanta, which developed its own                           and resolving problems plaguing the RLF
              tracking system, had the best recipient reporting                          program, which assigns overall responsibility
              record—receiving all 90 reports due. But 33 percent                        for the program to an individual who can be
              were submitted late. Philadelphia had the worst                            held accountable for its operation.
              record—receiving only 121 of 178. And 36 percent
              of those received were late. When EDA does not get                    ■	   Policies and procedures that promote a
              required reports or receives them late, it lacks critical,                 uniform approach to sequestering excess cash.
              timely information needed to manage the RLF
              program effectively.                                                  ■	   A database that contains a standard grantee
                                                                                         reporting and monitoring system to provide
              EDA also lacks an effective, practical data system that                    the critical information EDA needs to manage
              gives its headquarters and regional office staffs the                      the RLF program and protect its assets.
              ability to track the status of individual RLFs and
              oversee the RLF program. Its current database, the                We also recommended that EDA consistently collect
              Operation Planning and Control System (OPCS),                     and evaluate required financial reports; determine the
              contains some information related to RLFs, but does               status of the 47 RLFs that had not submitted reports
              not have all of the data needed to manage the                     as of September 30, 2005; and ensure that RLF
              program. We examined OPCS data as of May 2006,                    recipients undergo required single audits and file
              and found that 25 of the 78 nonreporting RLFs,                    reports with the Federal Audit Clearinghouse. EDA
              which were being tracked in the database in 2001,                 staff should actively use single audit reports to
              had been subsequently removed from OPCS without                   improve agency monitoring of grantee operations.


                                                                           29
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 30




              Economic Development Administration                                          March 2007—Semiannual Report to Congress




              Funds to Be Put to Better Use
                                                                             Since the fund was established, the city reported it
              Implementing our recommendations will put at least             had granted 74 loans to local businesses totaling in
              $29.8 million (identified as of September 30, 2005)            excess of $7 million. Of these, 49 loans were fully
              to better use. Our report also noted that had EDA              repaid, 13 were written off, 2 were in default, and 10
              taken action to sequester the full $44.4 million               were current.
              eligible for sequestration as of September 30, 2005,
              rather than only a portion ($14.6 million),                    At EDA’s request, we conducted an audit of the city’s
              approximately $960,000 in interest on the federal              RLF to assess its financial status, verify the
              share would have been available to put to better use.          allowability of administrative costs, and determine
                                                                             the city’s compliance with applicable laws and EDA
                                                                             regulations. Our audit disclosed many of the same
                                                                             poor fund management practices that we have
              EDA’s Response
                                                                             identified time and again among RLF recipients
                                                                             nationwide.
              EDA accepted our audit findings, acknowledging
              that the deficiencies in the RLF program are serious
                                                                             Excess Cash
              and demand immediate attention. Agency officials
              committed to aggressive implementation of our
                                                                             As of September 30, 2006, the city had $1,451,726
              recommendations and stated that EDA managers will
                                                                             of excess cash in the fund. The RLF reported 12
              pursue additional mechanisms necessary to
                                                                             active loans with an outstanding principal balance of
              strengthen management and fiduciary oversight
                                                                                                  $1,116,015, loan commitments
              while maximizing the effectiveness of the intensive
                                                                                                     of $200,000, and funds
              resources required to administer the program. (Office
                                                                                                       available for new loans of
              of Audits: OA-18200)
                                                                                                        $2,374,307. The capital
                                                                                                         utilization rate was
                                                                                                         36 percent.

              Ohio City Has Not Managed                                                                   The city has maintained
              RLF Well                                                                                  unallowable excess cash
                                                                                                    reserves for multiple reporting
              In September 1980, the Economic Development                    periods and has only closed five valid loans since
              Administration awarded a city in Ohio a long-term              2000. (Four other loans were closed during that
              economic development implementation grant of                   period, but had to be reallocated to other funds
              $1 million to establish a revolving loan fund. In              because they violated the city’s RLF plan.) City
              September 1983, EDA awarded the city an                        officials claim there is a need for RLF loans, but staff
              additional $500,000 and required a matching share              shortages have made it difficult to give the program
              of $166,666, increasing the RLF’s total capitalization         much attention. They plan to hire more loan officers
              to $1,666,666.                                                 to aggressively market the fund.

              This particular city was ranked by the U.S. Census             We recommended that the EDA Chicago regional
              Bureau as the poorest large city in the nation in both         director require the city to sequester $1,451,726 in
              2004 and 2006. The city’s economic base was                    excess cash in an interest-bearing account and remit
              traditionally centered in steel and automobile                 the interest to the U.S. Treasury.
              manufacturing. But 4 decades of decline in those
              industries, combined with a large population flight to
              the suburbs and unsuccessful attempts at urban
              renewal, have made it difficult for the city to attract
              new investment and retain existing businesses.


                                                                        30
OIG SAR 5-22-07   5/23/07   2:55 PM    Page 31




              March 2007—Semiannual Report to Congress                                               Economic Development Administration




              Reports Not Filed or Filed Late                                   Grantee Response
              Our audit found that the city had submitted late                  In response to our draft report, the city stated that it
              semiannual reports for the periods ending March                   is taking steps to eliminate the excess cash in the
              31, 2005, and September 30, 2006, and both were                   fund. It has established an industrial-commercial
              filled with mathematical errors. These inaccuracies               land bank that will sell ready-to-build properties
              raise questions about the reliability of RLF data and             directly to businesses for development, which will, in
              the fund’s actual financial condition. Additionally,              turn, allow faster startup for new businesses and
              the city has never filed reports for the September                distribution of RLF funds. The city expects to
              2005 and March 2006 semiannual periods. We                        approve up to five newly funded projects annually to
              recommended that the grantee be required to                       disburse $2.3 million of RLF funds from early
              submit a corrected semiannual report for September                summer 2007 through the end of 2009.
              2006, submit the missing March 2006 report, and
              make sure that all future reports are filed with EDA              According to the response, the city has received
              on time.                                                          approval to increase staffing from 12 to 22, which will
                                                                                enable it to better market the fund and increase
              Improper Independent Audit,                                       lending over the next 2 years. It has also hired a fiscal
              No RLF Certifications                                             manager, whose duties include overseeing external
                                                                                reporting requirements, and a divisional controller,
              We also found that the city did not include the RLF               whose duties include the completion and submission
              in its single audit for 2005 or file annual certifications        of RLF semiannual reports. Finally, the city
              for its RLF plan for at least 2 years. The absence of             represented that the RLF will be included in its FY
              certifications caused us to question whether the city             2007 single audit and the RLF plan will be certified, as
              has reviewed the RLF to determine whether it is                   required. We were encouraged by the actions described
              operating according to plan and in a way that most                in the city’s response, but reaffirmed our original
              effectively supports the economic adjustment                      findings and recommendations in the final report.
              strategy. We recommended that the city include the                (Denver Regional Office of Audits: DEN-18389)
              RLF in future single audits and provide annual
              certification that it is following the RLF plan.

              Funds to Be Put to Better Use

              Implementing our recommendation to sequester
              funds will put $1,451,726 to better use.




                                                                           31
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 32
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 33




                               INTERNATIONAL TRADE

                                  ADMINISTRATION


              T    he International Trade Administration is responsible for trade promotion and policy issues associated
                   with most nonagricultural goods and services. ITA works with the Office of the U.S. Trade Representative
              to coordinate U.S. trade policy. ITA has four principal units:
                   Market Access and Compliance develops and implements international economic policies of a bilateral,
                   multilateral, or regional nature, and participates in trade negotiations. Its main objectives are to obtain
                   market access for American firms and workers and to ensure full compliance by foreign nations with trade
                   agreements signed with the United States.
                   Manufacturing and Services undertakes industry trade analysis, shapes U.S. trade policy, participates in
                   trade negotiations, organizes trade capacity building programs, and evaluates the impact of domestic and
                   international economic and regulatory policies on U.S. manufacturers and service industries.
                   Import Administration defends American industry against injurious and unfair trade practices by
                   administering the antidumping and countervailing duty laws of the United States and enforcing other trade
                   laws and agreements negotiated to address such trade practices.
                   U.S. Commercial Service seeks to promote economic prosperity, enhance U.S. job creation, and
                   strengthen national security through a global network of international trade professionals. Commercial
                   Service promotes and protects U.S. commercial interests abroad and delivers customized solutions to
                   help U.S. businesses, especially small and medium-sized enterprises, compete effectively in the
                   global marketplace.




              Brazil Post Needs Management                                 Semiannual Report, page 23) and the South American
                                                                           posts of Argentina and Uruguay (September 2006,
              Attention to Overcome Some                                   pages 25-27). In this reporting period, we completed
              Challenges of Geography and                                  a comprehensive review of CS’ post in Brazil,
              Reduced Travel Budget                                        focusing on management structure, financial and
                                                                           administrative practices, and program effectiveness.
              Over the past few years, Commerce OIG has                    We also examined security at the post and the
              inspected a number of U.S. Commercial Service’s              handling of export control end-use checks. These
              overseas posts. Most recently, we reviewed operations        matters were discussed in two “Official Use Only”
              at CS’ five offices in China (see March 2006                 appendixes to the report.


                                                                      33
OIG SAR 5-22-07    5/23/07     2:55 PM    Page 34




              International Trade Administration                                                     March 2007—Semiannual Report to Congress



                                                                                       offices, and nongovernmental organizations despite
                     Brazil’s Economic Profile (2005)
                                 complications that make relationships difficult in
                                                                                       some cases. For example, the Sao Paulo American
                  GDP                        $1.556 trillion                           Chamber of Commerce—one of CS’ primary local
                                                                                       partners—reports being one of the largest in the
                  GDP per capita             $8,400
                                                                                       world, but most of its members are local Brazilian
                  GDP growth                 2.4 percent                               companies looking to export to the U.S. market, not
                  Population                 188,078,227                               to import U.S. products.
                  Unemployment               9.8 percent
                  Leading exports            transport equipment,
                                             iron ore, soybeans,
                                                                                       Our Findings
                                             footwear, coffee,
                                             and autos                                 We identified some areas that could benefit from
                                                                                       increased management attention and made a total of
                  Leading imports            machinery, electrical and                 47 recommendations to improve post operations.
                                             transport equipment,                      Some of our specific findings are as follows:
                                             chemical products,
                                             and oil
                                                                                       CS Brazil’s Management Structure
                                                                                       Is Challenging

                                                                                       CS Brazil is a large, diverse post with about 55 staff
              Largest Economy in Latin America                                         members in five offices spread over several hundred
                                                                                       thousand miles. The post’s senior commercial officer
              Brazil has the largest economy in Latin America and                      is stationed in Sao Paulo, Brazil’s business hub. The
              is the 14th largest U.S. trading partner.6 In 2005, the                  deputy senior commercial officer is in Brasilia,
              United States exported a total of $15.3 billion in                       Brazil’s capital and the location of the U.S. embassy.
              products and services to Brazil while its imports                        As a result, the senior officer primarily performs
              from Brazil totaled $24.4 billion.7 Brazil’s GDP is                      outreach with the Sao Paulo business community,
              $1.556 trillion, according to the CIA’s World                            while his deputy manages day-to-day relations with
              Factbook, and it has well-developed agricultural,                        the ambassador and other U.S. embassy officials. The
              mining, manufacturing, and service industries. The                       principal commercial officer in Sao Paulo oversees a
              country’s economy is growing but vulnerable to                           majority of CS’ core programs and services in Brazil,
              economic risks and international disputes over illegal                   largely because Sao Paulo produces the majority of
              activities in the tri-border area of Argentina, Brazil,                  products and services. In most posts, this is the
              and Paraguay.8                                                           responsibility of the senior and deputy senior
                                                                                       commercial officers.
              Our review found the CS Brazil post does a generally
              good job of providing assistance to U.S. companies                       Another management challenge involves the effective
              and that it collaborates well with most other relevant                   deployment of regional standards and intellectual
              trade promotion agencies, key U.S. government                            property experts located in Brazil. CS recently posted
                                                                                       a new South American regional standards expert to
              6
                U.S. Census Bureau, Top Trading Partners (Total Trade, Exports,
                Imports) as of June 2006, http://www.census.gov/foreign­               Sao Paulo, and a new intellectual property rights
                trade/statistics/highlights/toppartners.html, August 31, 2006.         attaché arrived in October 2006. However, their
              7
                U.S. Census Bureau, Foreign Trade Statistics, Trade in Goods           roles in Brazil and the region have not been
                (Imports, Exports, and Trade Balance) with Brazil,                     fully developed.
                http://www.census.gov/foreign-trade/balance/c3510.html,
                September 8, 2006.
                                                                                       We recommended that CS evaluate and clarify the
              8
                CIA, The World Factbook - Brazil,
                www.cia.gov/cia/publications/ factbook/print/br.html,                  roles and responsibilities of the CS Brazil senior and
                August 31, 2006.                                                       deputy senior commercial officers and the Sao Paulo


                                                                                  34
OIG SAR 5-22-07   5/23/07   2:55 PM     Page 35




              March 2007—Semiannual Report to Congress                                                     International Trade Administration



              principal commercial officer to better coordinate                   CS Brazil Export Successes Require
              and manage country-wide programs. We also                           Increased Management Attention
              recommended that work plans with long-term goals
              be developed for the standards and intellectual                     CS’ primary performance measure is the verified
              property attachés.                                                  number of export transactions, or export successes,
                                                                                  the agency facilitates. CS tracks both the nature of
              Staff Allocation and Team Structure                                 the export assistance it provides to U.S. companies
              Need Attention                                                      and the dollar value of the export success. Accuracy
                                                                                  and integrity of the data are paramount, because this
              In 2004 the ambassador requested that CS place staff                metric is reported to both Congress and OMB.
              at the U.S. consulate in Recife, which is located in
                                              northeast Brazil. At the            OIG’s previous reviews of CS posts around the world
                                              time of our review,                 have found that export success reporting is often
                                              however, CS had not yet             mishandled. CS Brazil reported it had increased its
                                              taken action on that                export success numbers by 161 percent in only 4
                                              request, continuing to rely         years, from 276 in FY 2001 to more than 720 in FY
                                              on its Belo Horizonte               2005. The post generated the second highest number
                                              office to serve that area of        of export success stories of all CS overseas posts for
                                              the country. We also                both fiscal years 2004 and 2005, claiming credit each
                                              found that CS’ offices in           year for more than 5 percent of the total number of
                                              Belo Horizonte, Brasilia,           export success stories generated by CS worldwide.
                                              and Porto Alegre exper­
                                              ience some difficulty               However, the post was not really doing as well as it
                                    CS Brazil attracting U.S. exporters           claimed. In our analysis of FY 2005 records, we
              In 2004 the CS Brazil           and promoting com-                  identified 61 invalid and 136 questionable export
              Belo Horizonte office           mercial opportunities in            successes, which reduces the post’s export successes to
              developed Como Importar
              Dos Estados Unidos,

                                              these regions even though           523. This makes CS Brazil’s performance less
              a Portuguese language           together they produce
              impressive and drops its ranking from second to fifth
              brochure for Brazilians         nearly one-third of Brazil’s        place among CS posts. By the end of FY 2006, CS
              about importing goods           gross domestic product.             Brazil had reported only 565 export successes, about
              from the U.S. The booklet
                                              Our report recommended              150 fewer than the 2005 level.
              is distributed during
              trade events.                   that CS management
                                              develop a strong market­            We found at least 72 invalid export successes out of a
              ing plan to increase U.S. business awareness of CS                  sample of 907 that CS Brazil reported in fiscal years
              Brazil offices and export opportunities in these                    2005 and 2006. An additional 162 export successes
              three cities.                                                       appeared questionable as to whether they met the
                                                                                  intent of CS’ mission. Specifically, CS Brazil claimed
              CS Brazil is responsible for 50 industry sectors and                137 export successes for renting booths to Brazilian
              subsectors, which it manages through teams. But we                  companies at U.S. trade shows, even though the firms
              found poor coordination, rivalry among team                         primarily sought to sell their Brazilian products at the
              members, and a limited focus on specific sectors. We                shows. The remaining 25 questionable export
              recommended that CS management assess the                           successes combined booth sales with training services
              existing team structure and the number and                          or claimed airline ticket sales without any indication
              assignment of industry sectors to CS Brazil staff, and              of CS value-added service.
              consider implementing changes that may improve
              productivity and foster a spirit of cooperation among               We recommended that CS revise the CS Operations
              team members.                                                       Manual’s definition of an invalid export success to
                                                                                  include claims that directly foster foreign exports, as
                                                                                  was the case of the booth rentals at U.S. trade shows.


                                                                             35
OIG SAR 5-22-07   5/23/07    2:55 PM     Page 36




              International Trade Administration                                        March 2007—Semiannual Report to Congress



              We also recommended that the agency remove all              its products and services (“trust funds”) to
              invalid and questionable CS Brazil export successes         supplement its discretionary budget for travel and
              from CS’ database, review export success                    outreach. This may be affecting other CS priorities
              performance data for CS Brazil and all CS posts             and the types of products and services the post
              worldwide to identify erroneously awarded office            provides. For example, in FY 2006 CS Brazil
              credits, and adjust the reported numbers. CS should         provided 22 percent fewer Gold Key services and 30
              also require posts to maintain export success               percent less customized market research than in
              documentation to verify all components of a valid           FY 2005.
              export success story.
                                                                          We recommended that CS reevaluate the post’s
              Budget Cuts Affected the Post’s                             discretionary travel budget to ensure that the post has
              Program Priorities                                          adequate resources, and develop a more effective
                                                                          strategy to increase or maintain trust fund collections
              From FY 2004 to 2006, CS Brazil’s operating and             while also increasing the number of core products
              administrative budget increased from $2.3 million           and services provided to U.S. clients.
              to $2.8 million because of rising fixed expenditures
              and a fluctuating exchange rate. To offset the cost         Financial and Administrative Operations Are
              increases, CS headquarters reduced the post’s               Generally Sound, but a Few Areas Require
              discretionary budget by more than 60 percent, from          Additional Attention
              $689,496 to $254,921, during the same period.
              This affected spending for direct program support           In general, CS Brazil’s financial and administrative
              (travel and supplies), furniture and equipment, and         operations appear sound, but some areas need
              hospitality. The post’s travel budget alone was             improvement. The post closely monitors its
              reduced from $169,156 to approximately $83,443              use of State Department-provided International
              in FY 2006. However, only $26,443 of the FY 2006            Cooperative Administrative Support Services (ICASS),
              budget was actually available to fund travel for            tracks its obligations and liquidations in eMenu, uses
              outreach and program support because the                    funds and purchase cards appropriately, and uses CS
              remaining amount was designated for the CS Brazil           vehicles only for official business. But we had
              all-hands meeting ($42,800) and officer training            difficulty tracking the post’s financial data because of
              ($14,200). As a result of these budget changes, the         the many discrepancies between financial reports
              post’s outreach to other regions in Brazil was              located on eMenu, accounting reports obtained from
              limited. The post is now using fees collected from          ITA, and various other documents. There is no


              CS Worldwide Export Success Rankings for FYs 2004 and 2005




                                                                                            Source: eMenu, Commercial Service, December 22, 2006




                                                                     36
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 37




              March 2007—Semiannual Report to Congress                                                         International Trade Administration



              consolidated report that provides a clear financial             USPTO reported that it has developed measurable,
              picture of the post.                                            long-term goals, objectives, and time lines for the
                                                                              intellectual property attaché in Brazil. NIST reported
              We recommended that CS take steps to further                    that it is (1) working with ITA to develop a plan to
              reduce ICASS costs, consider eliminating a financial-           identify measurable, long-term goals for the
              related staff position in Sao Paulo, and ensure policies        standards attaché in Brazil, and (2) formulating a
              for gifts, bequests, and travel advances and vouchers           long-term standards strategy and plan for South
              are followed. In addition, the post has some                    America. (Office of Inspections and Program
              unliquidated obligations that should be examined for            Evaluations: IPE-18114)
              possible deobligation, and needs to track and verify
              that all purchase card holders and approving officials
              receive required acquisition training.
                                                                              Review Finds Commerce
              Agency Responses                                                Can Enhance Its Trade
                                                                              Coordination Efforts
              ITA officials generally agreed with our
              recommendations and provided a detailed response                In August 2006, members of the U.S. House of
              to our report. Among other things, the agency’s                 Representatives asked the Commerce Inspector
              response noted that CS is moving the deputy senior              General and six other IGs to review certain aspects of
              commercial officer from the Brasilia office to the Sao          their agency’s efforts to promote export opportunities
              Paolo location because both the senior commercial               for small businesses and coordinate trade promotion
              officer and deputy positions must be located in the             efforts among themselves, with other government
              commercial capital to effectively manage CS                     agencies, and with the private sector.
              operations in Brazil. The Sao Paolo principal
              commercial officer position will be moved to Brasilia.          Congress established the Trade Promotion
              CS also plans to place an employee in Recife at the             Coordinating Committee (TPCC) in 1992 to
              U.S. consulate if the State Department waives ICASS             provide a unifying framework for federal export
              fees for an office there.                                       promotion and financing efforts. Among its other
                                                                              activities, the TPCC is required to submit an annual
              In addition, ITA reports the CS Brazil post is                  National Export Strategy to Congress.9 The Secretary
              working on a revised strategic plan and has come up             of Commerce serves as the chairman of the TPCC,
              with a strategy to expand market presence across                which also includes 18 other federal agencies with
              Brazil. The post has also developed a new industry              responsibility for some aspect of promoting U.S.
              team structure that consolidates a number of the                business overseas. The TPCC secretariat currently
              teams and clarifies roles and responsibilities.                 reports to the U.S. Commercial Service, which is the
                                                                              chief export promotion organization of ITA.
              ITA also stated that CS Brazil will work with the               Commerce OIG helped coordinate all the IG reviews
              agency’s Office of Strategic Planning to remove all             as they relate to the National Export Strategy and the
              invalid and questionable export successes. CS Brazil            TPCC’s role.
              management was to reiterate the latest CS guidance
              on export success reporting at the post’s all-hands             CS has a network of trade specialists located in 107
              meeting in April 2007.                                          U.S. cities and more than 80 countries to assist U.S.

              Finally, CS reported that it has increased the post’s
              discretionary travel budget to $107,079 for FY 2007,            9	
                                                                                   OIGs from several other TPCC agencies have identified some
                                                                                   concerns with the current process of drafting The National Export
              an addition of more than $20,000.
                                                                                   Strategy. We have highlighted those concerns in a separate
                                                                                   memorandum report to the Department, which will be issued
                                                                                   during the next semiannual reporting period.



                                                                         37
OIG SAR 5-22-07   5/23/07    2:55 PM     Page 38




              International Trade Administration                                         March 2007—Semiannual Report to Congress



              exporters and represent U.S. commercial interests            experience in international trade. Many of the
              abroad. Other Commerce organizations also play a             councils are inactive or otherwise play a limited role
              role in assisting exporters, including ITA’s                 in supporting CS’ trade promotion efforts.
              Manufacturing and Services and Market Access and             Opportunities likely exist for CS to energize these
              Compliance offices, the Minority Business                    councils and leverage their resources. CS has begun
              Development Agency, the National Institute of                to evaluate how the district councils could better
              Standards and Technology, the U.S. Patent and                support trade promotion efforts, but it has not yet
              Trademark Office, and the Bureau of Industry                 developed a plan that defines their role.
              and Security.
                                                                           CS and the State Department Should
              We focused our review on Commerce’s coordination             Cooperate to Support Partnership Posts
              of export promotion with federal and state agencies
              and other stakeholders, and the Department’s efforts         In countries where CS does not maintain an office,
              to identify and communicate specific export                  the State Department is responsible for representing
              opportunities or trade leads and other export-related        U.S. commercial interests and assisting U.S.
              information using the Internet. We found Commerce            exporters. The countries served by State’s economic
              could enhance its trade promotion efforts in a               section in the U.S. embassy, commonly referred to as
              number of areas and made 19 recommendations.                 partnership posts, are generally smaller, more difficult
                                                                           export markets. These posts can best serve U.S.
                                                                           exporters by actively collaborating with the nearby
              Our Findings                                                 CS post that has regional responsibility for the
                                                                           partnership post’s territory and with USEACs, which
              Commerce works closely with many partners,                   work directly with companies that may be interested
              including other federal, state, and local government         in pursuing business opportunities in countries
              agencies, and private sector organizations.                  served by partnership posts.
              Commerce’s domestic U.S. export assistance centers
              (USEACs) maintain active partnerships with local             Many partnership posts provide assistance to U.S.
              and national organizations. The TPCC secretariat             exporters and work closely with some USEACs.
              actively works with other agencies on various trade          However, Commerce and State have never formally
              promotion priorities. But despite these cooperative          agreed on how the program should be coordinated
              relationships, we found that the TPCC agencies do            and what their respective responsibilities are for
              not regularly communicate on specific trade                  supporting the commercial function of these posts.
              promotion issues and that doing so would strengthen          Without such an agreement, CS and State officers
              interagency collaboration.                                   often are uncertain about their responsibilities with
                                                                           regard to this support.
              Such issues include identifying and communicating
              trade leads, delivering information and services for         In November 2006, State’s Bureau of Economic and
              exporters via the Internet, providing trade finance          Business Affairs conducted its regular biannual survey
              assistance to U.S. companies, and developing trade           of the 94 U.S. embassies and consulates that provide
              capacity-building programs. The TPCC has not                 some form of commercial assistance to U.S.
              developed any working groups or other forums that            companies but do not have a CS presence. Both
              regularly meet to improve interagency coordination           Commerce OIG and State OIG provided input into
              on these issues. CS also should do more to increase          the design of the survey to ensure it gathered
              cooperation with state trade offices around                  information relevant to our ongoing reviews of the
              the country.                                                 partnership post program. As of January 2007, 61
                                                                           posts had responded to the survey. The results
              In addition, Commerce should seek to further engage          reinforce the need for Commerce-State agreement on
              the national network of 58 district export councils,         the role of CS posts in supporting the partnership
              which have more than 1,600 members with                      posts. The majority (68 percent) of the State


                                                                      38
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 39




              March 2007—Semiannual Report to Congress                                              International Trade Administration




              partnership posts are satisfied with the support of           ITA Should Improve Internet Resources,
              their CS regional counterparts. A number of posts             Identification and Communication of
              requested additional support from CS. The State               Trade Leads
              Department, in its summary of the survey results,
              specifically mentioned 5 posts that could benefit             ITA has several overlapping web sites, which means
              from more active partnerships with their local CS             potential U.S. exporters have to check numerous sites
              post and 3 posts that were not partnered with a local         for specific information. In addition, export.gov, the
              CS post but should be.                                        TPCC’s federal Internet portal managed by ITA, has
                                                                            only limited information from other TPCC agencies.
              Our report concluded that CS management needs to              Commerce needs to better coordinate federal
              provide its posts with clear guidance on their role in        Internet resources for exporters and consolidate its
              supporting partnership posts and should include this          own multiple web sites.
              in its performance measures. CS also could provide
              State’s posts better access to CS’ information                We also found that CS could make trade leads more
              technology resources, integrate CS and State’s                useful by improving the processes and technology
              commercial web sites, and coordinate market                   used to collect leads from federal agencies and
              research efforts. CS and State need to develop a joint        communicate them to exporters. The TPCC Internet
              planning mechanism for partnership post operations,           portal mainly contains trade leads from CS overseas
              payment procedures and quality standards for the              offices and from some State Department partnership
              services they provide, clear export success reporting         posts. Several other TPCC agencies as well as some
              procedures, and an appropriate training program for           other Commerce organizations have information on
              partnership post staff. CS should also provide                substantive export opportunities that could be
              additional information on partnership post services           included in the TPCC trade lead database. Instead of
              to USEAC staff and open communication channels                aggregating these leads on one federal web site,
              between CS’ Office of Domestic Operations and                 however, these other organizations are posting trade
              State’s Bureau of Economic and Business Affairs.              leads on their own web sites, making it difficult for
                                                                            U.S. exporters to search for all relevant trade
                                                                            opportunities. In addition, the TPCC database does


                                                                       39
OIG SAR 5-22-07   5/23/07    2:55 PM     Page 40




              International Trade Administration                                           March 2007—Semiannual Report to Congress



              not take advantage of available technology to allow            under way or under consideration to further enhance
              for automatic notification of export opportunities             collaboration with state trade offices, the district
              that match a company’s industry profile, which could           export councils, and other Commerce bureaus,
              be a useful tool for busy exporters.                           including ESA, MBDA, and NIST. ITA also reported
                                                                             that in early March 2007, CS issued interim
              Finance and Procurement Opportunities at                       partnership post guidance to CS officers and
              Multilateral Development Banks Should Be                       provided the guidance and a draft memorandum of
              Publicized                                                     understanding to the State Department for
                                                                             comment. These documents delineate CS and State’s
              Multilateral development banks fund development                responsibilities in the partnership post program.
              projects around the world and provide financing and            Commerce is waiting to receive State’s comments
              investment guarantees that might be beneficial to              before it implements the guidance and finalizes
              U.S. companies. Financing assistance may be offered            the memorandum.
              by a bank alone or in conjunction with financing and
              investment guarantees offered by the Small Business            The agency agreed to improve its Internet resources and
              Administration, the Export-Import Bank of the                  consolidate other agencies’ trade leads into export.gov
              United States, the Overseas Private Investment                 and outlined plans to address our recommendations.
              Corporation, other multilateral development banks,             ITA’s response also provided additional information
              or private banks.                                              regarding its multilateral development bank operations,
                                                                             but did not directly address all our recommendations to
              While most CS officers and many state trade agencies           enhance those operations. We asked the bureau to
              and other federal agencies were aware that CS                  provide an action plan detailing how it will implement
              maintains personnel at five multilateral development           our recommendations.
              banks, we found that many USEACs, state trade
              agencies, and exporters did not fully understand the           Three other Commerce bureaus also responded to
              trade finance, consulting, and other procurement               specific recommendations in our report. The Under
              opportunities at the banks. CS should provide more             Secretary for Economic Affairs agreed that STAT­
              information to key stakeholders on trade finance and           USA and ITA should evaluate ways to improve their
              direct procurement opportunities available at the              coordination in identifying trade leads. NIST
              banks and coordinate future exporter outreach efforts          concurred with our recommendation for enhanced
              with USEACs.                                                   cooperation between its Manufacturing Extension
                                                                             Partnership and CS. And MBDA agreed with our
                                                                             recommendation for better MBDA-CS coordination.
                                                                             (Office of Inspections and Program Evaluations:
              Agency Response
                                                                             IPE-18322)
              ITA agreed with most of our recommendations, and
              in its response to our report, outlined several efforts




                                                                        40
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 41




                     NATIONAL OCEANIC AND

                  ATMOSPHERIC ADMINISTRATION


              T   he National Oceanic and Atmospheric Administration studies climate and global change; ensures the
                  protection of coastal oceans and the management of marine resources;      provides weather services;
              and manages worldwide environmental data. NOAA does this through the following organizations:
                   National Weather Service reports the weather of the United States and provides weather forecasts and
                   warnings to the general public.
                   National Ocean Service provides products, services, and information that promote safe navigation,
                   support coastal communities, sustain marine ecosystems, and mitigate coastal hazards.
                   National Marine Fisheries Service conducts a program of management, research, and services related to
                   the protection and rational use of living marine resources.
                   National Environmental Satellite, Data, and Information Service observes the environment by
                   operating a national satellite system.
                   Office of Oceanic and Atmospheric Research conducts research related to the oceans and Great Lakes,
                   the lower and upper atmosphere, space environment, and the Earth.
                   Office of Program Planning and Integration develops and coordinates NOAAs’ strategic plan, supports
                   organization-wide planning activities, guides managers and employees on program and performance
                   management, and integrates policy analyses with decision making.




              NWS Followed Most Severe                                     before the tornado hit. NWS’ Chanhassen,
                                                                           Minnesota, weather forecast office (WFO) is
              Weather Policies During                                      responsible for issuing tornado and severe
              Deadly Tornado                                               thunderstorm warnings for Hennepin County, which
                                                                           includes the city of Rogers.
              On September 16, 2006, a few minutes before 10:00
              p.m. local time, a tornado struck the city of Rogers,        During the 12 minutes the tornado was on the
              Minnesota, killing a 10-year-old girl, injuring six          ground, the Chanhassen office received no reports of
              others, and damaging dozens of structures. Although          tornado sightings from public safety officials or
              the area was under both a tornado watch and severe           trained weather spotters.10 But the WFO’s damage
              thunderstorm warning at the time, the National               10
                                                                                An individual trained by the National Weather Service to report
              Weather Service did not issue a tornado warning                   on local observed weather conditions.



                                                                      41
OIG SAR 5-22-07      5/23/07      2:55 PM      Page 42




              National Oceanic and Atmospheric Administration                                                  March 2007—Semiannual Report to Congress



              assessment performed the following day determined                             Chanhassen WFO Did Not Follow Policy to
              that a tornado rated F2 on the Fujita Scale11 had                             the Letter
              indeed hit the city. The assessment also determined
              that the tornado initially touched down about 3.5                             NWS policy requires that severe thunderstorm
              miles west of Rogers, moved northeast through the                             warnings issued for areas concurrently under a
              northern part of the city, and dissipated in a                                tornado watch must state that tornadoes are also
              neighboring county. The tornado left a path of                                possible.12 The severe thunderstorm warning issued at
              damage 8 miles long.                                                          9:43 p.m.—9 minutes before the tornado touched
                                                                                            down—did not contain such a statement.
              Based on the NWS damage assessment, the tornado’s
              winds were estimated to be less than 73 miles per
              hour when it touched down, but it quickly gained
              strength. Wind speeds had reached an estimated 113­
              157 mph when it hit Rogers. The storm’s intensity
              diminished as it moved into adjacent Anoka County.

              In response to a request from then-Senator Mark
              Dayton (D-Minnesota), we examined NWS’ actions
              in connection with the Rogers tornado as well as
              agency policies and technological capabilities for
              forewarning the public. Our purpose was to assess
              whether NWS policies and procedures are adequate
              and were followed before and during the Rogers
              tornado, whether the Chanhassen WFO has state-of­
              the-art severe forecasting and observations
              technology, and if that equipment was operating
              properly on September 16, 2006.


              Our Findings                                                                                                                              OIG
                                                                                            The high winds from the unannounced tornado tore off roofs and
              We found that the Chanhassen WFO, NWS Central                                 demolished whole sections of homes.
              Region, and Storm Prediction Center for the most
              part followed agency policies for handling severe
              weather events and have equipment in place that is                            Dividing Staff to Monitor Conditions Left
              considered to be the best available technology for                            Rogers with Reduced Coverage
              reading weather conditions. But we noted several
              factors that may have adversely impacted                                      Shortly before the tornado hit, Chanhassen assigned
              Chanhassen’s handling of the situation and warrant                            warning responsibility for a region southwest of
              close management attention:                                                   Minneapolis/St. Paul to two forecasters on duty at
                                                                                            the time, because this area appeared most likely to
                                                                                            spawn tornadoes. One other forecaster was assigned
                                                                                            warning responsibility for an area north of the Twin
                                                                                            Cities, which included Rogers. Three minutes later,
              11	
                    F2 tornadoes cause considerable damage—roofs torn off frame             the WFO issued a severe thunderstorm warning for
                    houses; mobile homes demolished; boxcars overturned; large              Hennepin and a neighboring county, and 9 minutes
                    trees snapped or uprooted; light-object missiles generated; cars
                    lifted off ground. Fujita Scale wind estimates are as follows:
                    F0 (<73 mph); F1 (73-112 mph); F2 (113-157 mph);                        12
                                                                                                 See NWS Instruction 10-511 at
                    F3 (158-206 mph); F4 (207-260 mph); F5 (261-318 mph).                        www.weather.gov/directives/sym/pd01005011curr.pdf.



                                                                                       42
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 43




              March 2007—Semiannual Report to Congress                                National Oceanic and Atmospheric Administration




              after that, the tornado touched down near Rogers.             Weather Spotter’s Report Was Misinterpreted
              The theory behind dividing staff—to allow                     But Did Not Impact Performance
              forecasters to focus on more limited areas during
              volatile weather conditions—is normally a best                At 10:13 p.m., a weather spotter en route through
              practice. But the events in Rogers underscore the             Rogers from Albertville, Minnesota, called the
              unpredictability of severe weather: in this case, a           Chanhassen WFO to report encountering hail in
              rapidly developing event that may have warranted              Albertville at 9:55 p.m. and seeing storm damage in
              coverage by two forecasters.                                  Rogers. The Chanhassen technician who took the call
                                                                            did not ascertain the spotter’s point of departure and
              Notice from Storm Prediction Center                           erroneously assumed she was traveling in the opposite
              Suggested Improving Conditions                                direction—from Rogers to Albertville. After
                                                                            calculating the driving distance between the two
              At 9:54—as the tornado was on the ground in the               cities, the technician logged the time of the Rogers
              vicinity of Rogers—the NWS Storm Prediction                   observation at 9:45—10 minutes before the tornado
              Center in Norman, Oklahoma, issued a notice                   actually struck the city. This erroneous time, entered
              stating that the risk for tornadoes was diminishing           as the official time of the damage observation in
              across northern and central Minnesota, including              NWS’ storm reporting system, made it appear as
              Hennepin County. While this notification did not              though NWS knew about the tornado 13 minutes
              state that the possibility for tornadoes had ended, it        before the forecaster reported observing tornado
              appeared to send a message that conflicted with               conditions on radar and 19 minutes before issuing a
              actual conditions. Its intention was to notify                tornado warning. This misinterpretation and
              forecasters of the beginning of an hours-long period          subsequent logging of the report was a major factor
              of atmospheric evolution during which tornadoes               in the controversy surrounding NWS’ role in
              would normally become less likely.                            connection with the deadly Rogers tornado.




                                                                       43
OIG SAR 5-22-07   5/23/07    2:55 PM      Page 44




              National Oceanic and Atmospheric Administration                                          March 2007—Semiannual Report to Congress




              Access to FAA Radar Data Could Have Aided                               accelerated the warning decision process. We were
              Decision Making                                                         told that NWS is not connected to all TDWR sites
                                                                                      due to funding priorities.
              NWS relies on the Next Generation Radar system
              (NEXRAD)13 to monitor atmospheric conditions at
              122 weather forecast offices. The departments of                        Our Recommendations
              Defense and Transportation also operate more than
              30 NEXRAD systems. Many WFOs have access to                             To enhance its forecasting abilities, we recommended
              these radars’ data, although there is no DOD or                         that the director of NWS ensure the agency does the
              DOT NEXRAD system nearby the Chanhassen                                 following:
              WFO. While considered the best available
              technology for reading weather conditions,                                  ■    Reinforces through ongoing forecaster training,
              NEXRAD has some limitations—for example, in                                      NWS requirements for preparing weather
              reading precipitation, it has limited ability to                                 products such as watches and warnings so that
              distinguish between rain, hail, sleet, birds, snow, and                          weather field offices provide the public with all
              other airborne materials. Additionally, some weather                             required information.
              conditions can cause the radar beam to bend up or
              down, creating false images on the screen. There is no                      ■	   Researches methods to automate the inclusion
              evidence to suggest, however, that any of these                                  of required information in weather products to
              conditions played a part in the events surrounding                               ensure they are issued in accordance with
              the Rogers tornado. NWS advised us that technology                               NWS policies.
              known as dual polarization is currently under
              development. With planned implementation from                               ■	   Explores ways to improve coordination
              late 2007 through 2012, dual polarization should                                 between the Storm Prediction Center and the
              greatly enhance NEXRAD’s ability to distinguish                                  weather field offices so that communiqués
              between various types of radar reflections.                                      clearly distinguish between current and
                                                                                               anticipated future weather conditions.
              To augment its radar capabilities in some locations,
              NWS also uses the Federal Aviation Administration’s                         ■	   Assesses alternative staffing models and
              Terminal Doppler Weather Radar (TDWR), which is                                  practices that will permit WFOs to assign at
              designed for use at major airports. TDWR has several                             least two forecasters to monitor individual
              technical differences from NEXRAD, including                                     areas of severe weather when conditions
              lower peak power and a shorter maximum Doppler                                   necessitate dividing warning responsibilities.
              range. TDWR scans low levels of the atmosphere at
              1-minute intervals to provide important weather data                        ■	   Develops a standard protocol for field office
              for approaching and departing aircraft. Though                                   staff to follow when collecting spotter
              TDWR is available in the Minneapolis/St. Paul area,                              observations to ensure they ascertain accurate
              the Chanhassen office is not connected to it.                                    time frames, precise locations and direction,
              Subsequent analysis of TDWR data after the Rogers                                and all other pertinent details.
              tornado found that the radar showed indicators of a
              possible tornado on or near the ground about 3                              ■	   Assesses the feasibility of connecting Chanhassen
              minutes sooner than NEXRAD, primarily because                                    and other weather field offices to FAA’s Doppler
              NEXRAD was scanning a higher elevation at the                                    radar systems, where available, and deploying all
              time of the TDWR scan. TDWR information, in                                      available technology upgrades.
              combination with NEXRAD data, might have


              13
                 NEXRAD radar is often referred to as WSR-88D, which stands
              for Weather Surveillance Radar 1988 Doppler, in reference to the
              radar’s 1988 design date.



                                                                                 44
OIG SAR 5-22-07     5/23/07    2:55 PM    Page 45




              March 2007—Semiannual Report to Congress                                        National Oceanic and Atmospheric Administration




              NOAA’s Response
              In general, NOAA agreed with OIG’s findings and
              concurred with our six recommendations. The
              bureau suggested minor technical changes to the
              report, which were incorporated in the final version.
              (Denver Regional Office of Audits: DEN-18354)




              Weaknesses Persist in Native
              American Commission’s
              Management of Salmon
              Recovery Fund Award
              In 2004 the Office of Inspector General initiated a                                       Rob McFarlane, Northwest Indian Fisheries Commission
              performance audit of a Native American commission                   This map shows locations of the Washington state Native American
              in Washington that received a 5-year, $27.34 million                commission’s member tribes.
              grant under the Pacific Coastal Salmon Recovery
              Fund. This multimillion-dollar fund provides federal
              grants to Alaska, California, Idaho, Oregon, and                    Follow-up Site Visit Finds Continuing
              Washington and their resident Native American tribes                Poor Management
              to support local salmon conservation efforts.
              Established by Congress and administered by NOAA,                   We returned to the commission in March 2006 to
              the fund supports habitat restoration, research,                    assess whether it had improved its management of the
              recovery, and enhancement projects for endangered                   NOAA award. We found that the commission now
              and threatened salmon species. It is NOAA’s                         has a fisheries biologist review project proposals to
              largest financial assistance program for salmon                     inform its funding decisions and has implemented
              recovery, receiving $530 million14 in congressional                 some monitoring procedures. But most of the
              appropriations from 2000 through 2006.                              weaknesses in fund administration we noted in 2004
                                                                                  remain. The commission still has no written internal
              The commission allotted the award funds to each of                  control policies and procedures; does not fully inform
              its 20 member tribes in equal, no-match subgrants of                recipients of their obligations with respect to awards;
              roughly $1.3 million. Because we identified a range                 awards funds to the tribes equally, rather than
              of management and compliance problems at the                        according to a proposal’s merits and costs; and
              commission, we also conducted individual audits of                  reimburses tribes for claimed costs without
              nine tribal subgrants before completing our audit of                determining whether the costs are allowable.
              the commission. These audits confirmed the
              commission’s administrative failings and caused us to               We recommended that NOAA require the
              question $4 million in costs claimed by the tribes.                 commission to document in writing its internal
              As a result, we recommended a series of actions                     controls for managing all phases of the subgrant
              to improve the commission’s administration of                       process; give recipients full written disclosure of all
              program funds.                                                      applicable grant terms and conditions; fund
                                                                                  proposals according to their merit and projected
                                                                                  costs; and closely monitor projects to ensure the
              14
                   http://www.nwr.noaa.gov/Salmon-Recovery-Planning/PCSRF/        tribes comply with federal guidelines.
                   upload/PCSRF-Rpt-2006.pdf



                                                                             45
OIG SAR 5-22-07   5/23/07     2:55 PM      Page 46




              National Oceanic and Atmospheric Administration                                         March 2007—Semiannual Report to Congress



                                                                                        In responding to our draft report, the commission
                                                                                        agreed that it needed to document policies and
                                                                                        procedures, do a better job of explaining federal grant
                                                                                        requirements to recipients, and improve its
                                                                                        monitoring of their projects. However, it took
                                                                                        exception to our recommendation that funds be
                                                                                        awarded according to a project’s merit and costs,
                                                                                        contending that equal distribution is permissible and
                                                                                        allows the tribes to establish their own project
                                                                                        priorities. We considered the commission’s objection
                                                                                        but disagreed with its funding process and thus did
                                                                                        not change our original recommendation. (Seattle
                                                                                        Regional Office of Audits: STL-16657)




                                                                             OIG
              A tribal commission employee displays trays holding salmon eggs.




                                                                                   46
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 47




                           NATIONAL

                    TELECOMMUNICATIONS AND

                  INFORMATION ADMINISTRATION


              T     he National Telecommunications and Information Administration serves through the Secretary of
                    Commerce as the executive branchs’ principal advisor to the President on domestic and international
              telecommunications and information policy issues. NTIA manages the federal use of the electromagnetic
              spectrum; provides grants for national information and public broadcasting infrastructure projects; and
              performs telecommunications research and engineering. It works to enhance citizens’ access to cable television,
              phone, and other telecommunications services; and educates state and local governments and other entities on
              ways to use information technology and telecommunications more effectively.




              Television Alliance Needs Better                              The Digital Television Transition and Public Safety
                                                                            Act of 2005 sets a February 2009 deadline for
              Accounting Procedures, Policies                               conversion of all over-the-air full-power television
              to Manage Grant                                               station broadcasts from analog to digital format. It is
                                                                            critical that broadcasters in New York City, one of the
              The Metropolitan Television Alliance (MTVA) is a              nation’s largest media markets, have the ability to
              consortium of 11 New York City television stations            provide digital over-the-air coverage by that date. The
              formed after September 11, 2001, when the analog              act authorizes Commerce’s Assistant Secretary for
              and digital transmission facilities of most major New         Communications and Information to make
              York City broadcasters were destroyed in the collapse         payments in fiscal years 2007 and 2008 not
              of the World Trade Center. After losing their primary         exceeding $30 million to reimburse MTVA for costs
              broadcast facilities, the members of MTVA set up              incurred in the design and deployment of a
              temporary facilities at the Empire State Building. For        temporary television broadcast system that will
              various technical reasons, the Empire State Building          provide adequate over-the-air digital television
              reportedly is not suitable as a long-term digital             coverage to the New York metropolitan area
              television broadcasting platform. The Freedom Tower,          from February 2009 until the completion of
              which will be built at the former World Trade Center          permanent digital facilities in Freedom Tower.
              site, will ultimately serve as home to the MTVA               To implement this provision of the act, the
              members’ permanent digital transmission platform.             National Telecommunications and Information
              Freedom Tower has a 2011 completion date.                     Administration will make a grant to MTVA.15
                                                                            15
                                                                                 Because NTIA does not have an internal grants administration
                                                                                 staff, the NIST grants office will administer the grant.



                                                                       47
OIG SAR 5-22-07   5/23/07   2:55 PM    Page 48




              National Telecommunications and Information Administration                          March 2007—Semiannual Report to Congress




              The MTVA Project
              MTVA has proposed a $29.5 million project in two
              phases. The first phase involves design, construction,
              and deployment of a four- or five-site prototype
              digital television transmission system. The prototype
              system allows MTVA to test various technical aspects
              of the network, including possible interference from
              multiple overlapping broadcast signals; efficiency,
              reliability, and cost-effectiveness of equipment;
              optimal siting, power, and antenna height
              parameters; and quality of broadcast reception.
              MTVA estimates a total cost of $7,855,000 for the
              first phase of the project, which includes equipment
              purchases, consultant costs, and antenna site rentals
              for deploying, testing, and operating the prototype
              system.

              The second phase involves deploying, testing, and
              operating a full-scale network of up to 20 sites that
              will provide over-the-air digital broadcasting service
              to the entire New York City metropolitan area.
              MTVA’s proposal estimates total costs for the second
              phase of the project to be $21,645,000.

              MTVA’s cost estimates do not include salaries, fringe                                                             Ana Schaeffer/www.sxc.hu
              benefits, or indirect costs. Salaries and associated              MTVA members installed temporary broadcasting facilities at the
              fringe benefits are not included because MTVA has                 Empire State Building after the World Trade Center’s twin towers
                                                                                collapsed from the September 11, 2001, terrorist attack. However,
              no permanent employees. Both its president and                    for various technological reasons, the Empire State Building is not
              chief technical officer serve as consultants to the               suitable as a long-term digital television broadcasting platform. The
              alliance, and they will charge their work under the               Freedom Tower, which will be built at the former World Trade
              grant as independent contractors. MTVA also does                  Center site and is currently scheduled for completion in late 2011,
              not have office facilities. MTVA’s application does               will serve as the permanent digital transmission platform.
              not request reimbursement of indirect costs
              associated with the NTIA-funded project as part of
              its cost claims under the grant. Instead, the alliance’s          What We Found
              proposal includes only those costs that are directly
              associated with the development, testing, and                     We had determined prior to our survey that MTVA
              operation of its prototype and full-scale interim                 did not have adequate written accounting policies
              digital broadcasting systems.                                     and procedures. Subsequently, MTVA developed
                                                                                written procedures, which we reviewed and found
              Since MTVA has never received grants from the                     did not properly reference applicable federal cost
              federal government, NTIA requested assistance from                principles. As a first-time recipient of federal financial
              OIG to ensure the necessary accounting and internal               assistance, MTVA needs a clear understanding of the
              controls were in place prior to award. In October and             types of costs eligible for reimbursement. NTIA
              November 2006, we conducted a limited scope                       should clearly articulate the cost principles MTVA
              survey of MTVA’s accounting system and examined                   should use to determine what costs are allowable
              MTVA’s records of costs already incurred.                         under the grant.



                                                                           48
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 49




              March 2007—Semiannual Report to Congress                      National Telecommunications and Information Administration



              We also noted that MTVA does not have written                 recipient, federal regulations provide that the
              contracts with its existing consultants and vendors as        government retains an interest in such property.
              required by federal regulations, and the consortium           Federal regulations also require a physical inventory of
              does not have written procurement procedures.                 equipment purchased with federal funds and results
              Grant recipients are required to establish written            reconciled with equipment records at least every 2
              procedures to ensure contracts are awarded only to            years. Federal regulations also include detailed
              responsible firms. In addition, without written               procedures for disposing of equipment that is no
              procurement procedures, MTVA could unwittingly                longer needed for its intended purpose under a grant.
              violate the terms and conditions of the grant and not
              be reimbursed for otherwise allowable expenses.               NTIA Should Ensure Audit Coverage

              Preaward Costs Need Careful Review                            MTVA’s proposal did not include provisions for
                                                                            periodic audits of the costs incurred on the project.
              According to federal regulations, certain costs               Given the size of the award and MTVA’s lack of
              incurred prior to the award date are allowable. We            experience with federal grant requirements, we
              reviewed records supporting $152,069 in costs                 believe that audit coverage will help ensure that the
              MTVA incurred prior to our site visit and for which           award funds are used for the intended purpose. We
              it intends to seek reimbursement under the award.             discussed this issue with MTVA officials during our
              Included in those costs are certain expenditures              site visit, and they volunteered to submit to annual
              related to the preparation of MTVA’s grant proposal           audits of expenditures under the grant, beginning
              to NTIA.                                                      with the period ending December 31, 2007.

              The records we reviewed lacked sufficient detail to
              determine the exact costs MTVA incurred preparing
              its proposal, but federal cost principles require bid         Our Recommendations
              and proposal costs to be accumulated and allocated
              across a company’s operation as an indirect cost item.        We recommended that the Assistant Secretary for
              Since the grant will not reimburse MTVA for indirect          Communications and Information require MTVA to
              costs, the proposal costs would not be recoverable            correct the deficiencies in its accounting policies and
              under the award. We also found that $11,850 of                procedures, and obtain a detailed accounting of
              intended preaward costs are for a consultant’s                proposed preaward costs from MTVA and assess each
              preparation of written comments to NTIA on                    item for allowability under the grant. We also
              another program. This work is outside the scope of            recommended that NTIA take steps to ensure that
              design, construction, and implementation of an                MTVA is aware of and in compliance with federal
              interim digital transmission network for the New              regulations relating to equipment purchased with
              York City metropolitan area and as such would not             grant funds. In addition, we recommended that
              appear to be an allowable expense under the grant.            NTIA include in the award a requirement for a
                                                                            program-specific audit for the year ending December
              Government Interest in Equipment Acquired                     31, 2007, for every successive year that award
              with Award Funds Needs to Be Recognized                       expenditures exceed $500,000, and at the completion
                                                                            of the project.
              MTVA plans to acquire millions of dollars worth of
              digital broadcasting equipment with the grant money.          NTIA subsequently informed us that all our
              However, the equipment will no longer be needed               recommendations have been incorporated in the
              when the Freedom Tower is completed in late 2011.             MTVA grant’s special award conditions. (Denver
              Although title to such equipment vests in the                 Regional Office of Audits: DEN-18401)




                                                                       49
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 50
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 51




                  TECHNOLOGY ADMINISTRATION


              T   he Technology Administration serves the needs of technology-based industry, advocates
                  federal actions and policies to speed the transfer of technology from the laboratory to
              the marketplace, and removes barriers for commercializing new technologies. It includes three
              major organizations:
                   Office of Technology Policy works in partnership with the private sector to develop and advocate national
                   policies and initiatives that use technology to build Americas’ economic strength, promote the creation of
                   high-wage jobs, and bring about improvements in our quality of life.
                   National Institute of Standards and Technology promotes U.S. innovation and industrial
                   competitiveness by advancing measurement science, standards, and technology in ways that enhance
                   economic security and improve quality of life. NIST manages four programs: the Advanced Technology
                   Program, the Manufacturing Extension Partnership program, the Baldrige National Quality Program, and
                   NIST Laboratories.
                   National Technical Information Service is a self-supporting agency that promotes the nations’ economic
                   growth and job creation by providing access to information that stimulates innovation and discovery.
                   NTIS accomplishes this mission through information collection and dissemination to the public and
                   through information and production services to federal agencies.



              NIST Logistics Group Operations                             headquarters. In conjunction with the finance
                                                                          division, the unit also conducts an annual inventory
              Are Mostly Sound but Need                                   of the precious metals used by NIST researchers.
              Attention in Some Areas
                                                                          Although we found that the Logistics Group’s
              In late 2006, we conducted a review of the Logistics        operations and procurement activities were generally
              Group unit of the National Institute of Standards           sound, our report described the need for
              and Technology’s Administrative Services Division.          management attention and some improvements in
              This was part of our ongoing work in the area of            the areas of precious metals inventory maintenance,
              strengthening internal controls in the Department.          shipping and receiving, and storeroom operations.
                                                                          We recommended that NIST improve its guidance
              The Logistics Group unit handles personal property          and training for precious metals custodians; ensure
              management and disposal, oversees shipping and              adequate staff resources within the Logistics Group;
              receiving, arranges household moves for select              address several safety concerns involving daily
              employees and researchers, and operates a supply            operations that were brought to our attention;
              storeroom at NIST’s Gaithersburg, Maryland,                 improve the shipping and receiving guidance



                                                                     51
OIG SAR 5-22-07   5/23/07     2:55 PM      Page 52




              Technology Administration                                                             March 2007—Semiannual Report to Congress



              provided to NIST employees; and replace a                               Audits Unresolved for More Than
              storeroom inventory management system that has
              limited capabilities.                                                   6 Months
                                                                                      Computer Aided Surgery Inc.,
              Bureau Response                                                         New York
              In its response to our report, NIST indicated it had                    An OIG audit of this NIST cooperative agreement
              begun working on several of the recommendations                         (see September 2004 issue, page 35, and March 2005
              we made. Officials also said they had taken                             issue, page 33—ATL-16095) questioned costs
              immediate action to address some safety issues we                       totaling $547,426 in inappropriately charged rent,
              found during our review. (Office of Inspections and                     utilities, and certain salary, fringe benefit, and other
              Program Evaluations: IPE-18321)                                         expenses because these costs were unallowable, in
                                                                                      excess of budgetary limits, or incorrectly categorized.
                                                                                      This audit remains unresolved because we requested
                                                                                      that NIST postpone its submission of an audit
                                                                                      resolution proposal.


                                                                                      FastVDO LLC, Maryland
                                                                                      An audit of this NIST cooperative agreement (see
                                                                                      March 2006 issue, page 35, DEN-17410)
                                                                                      recommended that NIST disallow $51,838 in
                                                                                      questioned costs, recover excess federal disbursements
                                                                                      of $29,409, and ensure that the recipient, among
                                                                                      other things, (1) implements an adequate method for
                                                                                      capturing time directly spent on the ATP project, (2)
                                                                           OIG
                                                                                      bills only for that time, (3) develops written financial
              NIST researchers use precious metals in a number of forms,
              including solid, liquid, and powder.
                                                                                      management procedures, and (4) tracks and
                                                                                      inventories grant-funded purchases as required by
                                                                                      federal regulations and ATP program terms. This
                                                                                      audit remains unresolved because we have postponed
                                                                                      NIST’s submission of an audit resolution proposal.




                                                                                 52
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 53




                       UNITED STATES PATENT AND

                          TRADEMARK OFFICE


              T    he United States Patent and Trademark Office administers the nations’ patent and trademark laws.
                   Patents are granted and trademarks registered under a system intended to provide incentives to invent,
              invest in research, commercialize new technology, and draw attention to inventions that would otherwise go
              unnoticed. USPTO also collects, assembles, publishes, and disseminates technological information disclosed
              in patents.




              USPTO Acquisition                                             FY 2006 Financial Statements
              Operations Could Benefit                                      Audit: Clean Opinion and
              from Improved Guidance                                        Improved IT Controls
              We reviewed the procurement process at USPTO to               Independent auditor KPMG rendered an unqualified
              gain an understanding of the systems used to manage           opinion on USPTO’s FY 2006 financial statements,
              the process and to determine if the agency’s                  finding them fairly presented, free of material
              acquisition criteria have changed since the Patent and        weaknesses, and in compliance with all applicable
              Trademark Efficiency Act took effect in March 2000.           laws and regulations. KPMG reported that USPTO
              USPTO’s use of the flexibilities and authorities              continues to maintain a sound internal control
              provided by that act has been on OIG’s list of Top 10         structure that enables the agency to prepare reliable
              Management Challenges since 2001.                             financial and performance information.

              We did not issue any recommendations, but did note            As part of the financial statements audit, KPMG
              several areas that could benefit from improved                assessed information technology general controls for
              guidance. For example, we learned the procurement             USPTO systems used to process and maintain key
              staff needs guidance for determining when to use the          financial data against criteria in GAO’s Federal
              Patent and Trademark Office Acquisition Guidelines.           Information System Controls Audit Manual (FISCAM).
              We also found data input errors in the Federal                KPMG found that USPTO had resolved six of eight
              Procurement Data System that could have been                  FISCAM weaknesses reported in FY 2005. The two
              prevented with better controls. (Business and Science         remaining weaknesses are in the areas of access
              Division: BSD-17779)                                          controls and service continuity. (Financial Statements
                                                                            and Accountability Audits: FSD-18003-1 and -2)




                                                                       53
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 54
OIG SAR 5-22-07     5/23/07    2:55 PM     Page 55




                                          DEPARTMENT-WIDE

                                            MANAGEMENT


              T     he United States Department of Commerce creates the conditions for economic growth and opportunity
                    by promoting innovation, entrepreneurship, competitiveness, and stewardship. The Department has three
              stated strategic goals:
                      GOAL 1: Provide the information and tools to maximize U.S. competitiveness.
                      GOAL 2:       Foster science and technological leadership by protecting intellectual property,
                                    enhancing technical standards, and advancing measurement science.
                      GOAL 3:       Observe, protect, and manage the Earths’ resources to promote
                                    environmental stewardship.

              The Department has also established a Management Integration Goal that is equally important to all bureaus:

              Achieve organizational and management excellence.


              The Department Needs                                             travel, unless their agencies approve the more
                                                                               costly first- or business-class (“premium-class”)
              to Tighten Controls,                                             accommodations. The FTR allows premium-class air
              Update Guidance for                                              travel under a variety of circumstances, for example,
                                                                               when a seat in coach class is unavailable, when
              Premium-Class Travel                                             international flight time exceeds 14 hours, or
                                                                               when the upgrade is needed to accommodate a
              Government workers on official travel are a lucrative            traveler’s disability.
              source of income for the travel industry. According to
              the General Services Administration, federal                     At Commerce, the DOC Travel Handbook details the
              spending on travel totaled $15.4 billion in fiscal year          agency-specific policies and requirements travelers
              2005. And the largest share of the spending—                     must follow to comply with the FTR. During this
              $3.4 billion—went toward airfare.16,17                           semiannual period, we examined a sample of 74
                                                                               premium-class flights taken by Commerce employees
              To keep airfare costs in check, the Federal Travel               in fiscal years 2005 and 2006 to determine how
              Regulation (FTR) requires government employees to                well the Department enforces its policies and
              fly coach for official domestic and international                FTR requirements.


              16
                   www.govexec.com/story_page.cfm?articleid=35888&sid=3
              17
                   www.govexec.com/features/0806-15/0806-15s6.htm



                                                                          55
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 56




              Department-wide Management                                                   March 2007—Semiannual Report to Congress




              Our Findings                                                   requirement: the Travel Management Division could
                                                                             produce only 4 CD-334 forms for the 74 trips in our
              Our sample contained numerous instances in which               sample. We backtracked to the travel voucher
              the Department failed to properly authorize or                 processing offices and individual bureaus to
              approve premium-class travel, as required by the               determine what documentation existed and found
              handbook and the FTR. We noted two major reasons               only 14 properly authorized CD-334s.
              for the failure:
                                                                             It falls to the Department’s Travel Management
              Outdated Policy                                                Division, within the Office of Administrative
                                                                             Services, to ensure that internal controls over
              The DOC Travel Handbook, the Department’s                      premium-class travel are clearly defined and
              primary source of comprehensive travel policy,                 consistently applied. While basic controls are in
              contains premium-class travel guidance dating back             place, their poor implementation increases the
              to 1990 and 1992. This guidance stipulates that the            opportunity for wasteful travel spending.
              Chief Financial Officer and Assistant Secretary for
              Administration must authorize premium-class travel.
              But in 1993, the acting CFO/ASA at the time
              delegated this authority to Secretarial officers for
              their respective bureaus, allowing them to, in turn,
              pass on the authority to the bureau official of their
              choice. The handbook was never revised to reflect
              this new structure. In 2002 the Department
              conducted an internal review of the premium-class
              approval process and found confusion within its own
              travel management center (known as SATO) about
              who had authority to approve premium-class travel.
              It also found that the Department had not regularly
              provided SATO with a list of individuals authorized
              to approve premium-class air accommodations.
              The 2002 internal review recommended changes
              to resolve these problems but they were never
              implemented, so the confusion remains. In our                                         www.osec.doc.gov/oas/travel/default.htm
              review, we found that travel policy is still
              inconsistently applied Department-wide: for
              example, some bureaus do not require documented
              justification for premium-class travel, others do not          Our Recommendations and
              enforce the requirement for agency approval.                   Department Response
              Poorly Implemented Internal Controls                           We recommended that the Department, among
                                                                             other things, update the DOC Travel Handbook to
              Before a bureau’s travel management center issues a            reflect all current policies and requirements, and
              premium-class airline ticket, it must receive a Request        ensure requirements for documenting the need
              for Approval of Extra Fare Air Accommodations                  for premium-class travel and for approving such
              (Form CD-334), signed by the designated approving              requests are complied with across all bureaus and
              official. These are submitted to Commerce’s Travel             regional operations.
              Management Division, which is supposed to verify
              the forms’ proper authorization. But we found that             Department officials concurred with our findings
              neither the bureau centers nor the Travel                      and detailed corrective action they have already taken
              Management Division routinely follows this                     to strengthen internal controls over premium-class


                                                                        56
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 57




              March 2007—Semiannual Report to Congress                                                  Department-wide Management



              travel: they are revising the Travel Handbook to reflect        Noncompliance with Anti-Deficiency Act
              current policy and practice, updating the list of               Largely Resolved
              approving officials quarterly and disseminating it to
              all bureau travel centers, and they have revised the            NOAA. Last year’s audit reported that the
              CD-334 to facilitate the verification process.                  Department’s Office of General Counsel had
              (Business and Science Division: BSD-18154)                      identified a real property agreement between NOAA
                                                                              and a nonprofit entity that contained an
                                                                              indemnification clause. The clause was in violation of
                                                                              the Anti-Deficiency Act because it constituted an
              Commerce Earns Clean Opinion                                    open-ended obligation of government funds.
              for FY 2006 Consolidated                                        Prompted by this finding, NOAA reviewed 2,130
              Financial Statements                                            other agreements and identified 80 that contained
                                                                              indemnification clauses or provisions involving
              IT Control Weaknesses Remain a                                  questionable liability. The Department’s Office of
                                                                              General Counsel determined that these agreements
              Reportable Condition                                            also constituted violations of the Anti-Deficiency
                                                                              Act. The Secretary reported these violations to the
              For the 8th consecutive year, the Department                    President, Congress, and the Comptroller General as
              received an unqualified opinion on its consolidated             required by 31 USC § 1517(b). NOAA subsequently
              statements, and its financial management systems                identified another agreement, for a total of 82
              were in full compliance with the Federal Financial              containing such clauses.
              Management Improvement Act of 1996. However,
              the independent auditors (KPMG) noted continuing                Our FY 2006 audit found that 75 of these
              deficiencies in information technology controls that            agreements have been amended, terminated, or
              together constitute a reportable condition.                     allowed to expire, and NOAA is taking action to
              Commerce was also cited for one instance of                     correct the remaining 7.
              noncompliance with the Anti-Deficiency Act.
                                                                              Economics and Statistics Administration. Also
              Reportable Condition Reflects Persistent                        during FY 2005, ESA identified seven 1-year
              FISCAM Weaknesses                                               agreements that contained indemnification clauses in
                                                                              violation of the Anti-Deficiency Act. The Secretary
              The auditors assessed general IT controls over the              reported these, as required, in June 2006, and all
              Department’s major financial reporting systems                  seven had expired by fiscal year-end.
              against the six criteria in GAO’s Federal Information
              System Controls Audit Manual, finding weaknesses in
              all six areas—entity-wide security, security access
              controls, application software development and                  “Special Purpose” Statements Also
              change control, system software, segregation of                 Receive Clean Opinion
              duties, and service continuity. Effective general IT
              controls are essential to ensuring the integrity and            As part of the FY 2006 consolidated audit, KMPG
              reliability of data used to prepare and report financial        examined Commerce’s statements of net cost and
              information. Weaknesses in these controls have been             changes in net position (i.e., “special purpose”
              a problem for Commerce since 1998, though each                  financial statements), and its reporting of
              year the Department has reduced the number of                   intragovernmental activity and related payments and
              deficiencies and strengthened these controls.                   balances. These reviews assessed the Department’s
                                                                              compliance with financial reporting requirements
                                                                              stipulated in the Treasury Financial Manual. The
                                                                              auditors rendered an unqualified opinion on the


                                                                         57
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 58




              Department-wide Management                                                   March 2007—Semiannual Report to Congress



              special purpose statements and concluded internal             Preaward Financial Assistance
              controls over financial reporting for these statements
              were sound. (Financial Statements and Accountability          Screening
              Audits: FSD-18001-1, -2, -3)
                                                                            As part of our ongoing emphasis on prevention of
                                                                            fraud, waste, and abuse, we continue to work with
                                                                            the Office of Acquisition Management, NOAA and
              Audits Unresolved for More                                    NIST grant offices, and EDA program offices to
                                                                            screen the Department’s proposed grants and
              Than 6 Months                                                 cooperative agreements before they are awarded. Our
                                                                            screening serves two functions: it provides
              Census Bureau                                                 information on whether the applicant has unresolved
                                                                            audit findings and recommendations on earlier
              ITS Services, Inc.                                            awards, and it identifies any negative financial or
                                                                            investigative history on individuals or organizations
              In March 2005, we reported that 3 of the 32 task              connected with a proposed award.
              orders awarded under an IT services contract were
              audited to determine whether the costs billed by
              the firm were reasonable, allowable, and allocable
              under contract terms and conditions and
              federal regulations. We found that the firm had
              failed to comply with numerous contract and
              federal requirements, and questioned more
              than $8.5 million in direct labor and
              reimbursable costs.
                                                                            On January 1, 2004, we implemented new policies
              Computer & High Tech Management, Inc.
                                                                            and procedures for our preaward screening process.
                                                                            OIG and the Department determined that there are
              We reported in our September 2005 Semiannual
                                                                            several categories of recipients for whom the costs
              Report (page 14) the results of audits of 2 of the 21
                                                                            and administrative burden of the screening process
              task orders for another firm providing IT services to
                                                                            may well outweigh the government’s risk of financial
              Census. We sought to determine whether the firm
                                                                            loss. Our new policies exempt from review, recipients
              had complied with contract terms and conditions
                                                                            who (1) receive awards in amounts of $100,000 or
              and federal regulations and had billed Census for
                                                                            less; (2) have received financial assistance from the
              work performed in accordance with specifications of
                                                                            Department for 3 or more consecutive years without
              the task order. We found that the firm failed to
                                                                            any adverse program or audit findings; or (3) are
              comply with numerous contract and federal
                                                                            units of a state or local government.
              requirements, which caused us to question more
              than $10.7 million in direct labor and other
                                                                            During this period we screened 61 proposed awards.
              reimbursable costs.
                                                                            For 8 of the awards, we found major deficiencies that
                                                                            could affect the ability of the prospective recipients to
              We have suspended audit resolution on both of
                                                                            maintain proper control over federal funds. On the
              these contract audits pursuant to an agreement
                                                                            basis of the information we provided, the
              with Census.
                                                                            Department delayed 7 awards and established special
                                                                            award conditions for 1. (Office of Audits)




                                                                       58
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 59




              March 2007—Semiannual Report to Congress                                                     Department-wide Management




              Nonfederal Audit Activities                                   The following table shows a breakdown by bureau of
                                                                            more than $336 million in Commerce funds audited.
              In addition to undergoing OIG-performed audits,
              certain recipients of Commerce financial assistance
              are periodically examined by state and local
              government auditors and by independent public
              accountants. OMB Circular A-133, Audits of States,
              Local Governments, and Non-Profit Organizations, sets
              forth the audit requirements for most of these audits.
              For-profit organizations that receive Advanced
              Technology Program funds from NIST are audited in
              accordance with Government Auditing Standards
              and NIST Program-Specific Audit Guidelines for
              ATP Cooperative Agreements, issued by the
              Department.

              We examined 203 audit reports during this
              semiannual period to determine whether they
              contained any audit findings related to Department
              programs. For 146 of these reports, the Department            * Includes $117,854,774 in ATP program-specific audits.
              acts as oversight agency and monitors the audited
              entity’s compliance with OMB Circular A-133 or                We identified a total of $504,542 in federal
              NIST’s program-specific reporting requirements.               questioned costs and $242,279 in funds to be put to
              The other 57 reports are from entities for which              better use. In most reports the subject programs were
              other federal agencies have oversight responsibility.         not considered major programs; thus the audits
              We identified 17 reports with findings related to the         involved limited transaction and compliance testing
              Department of Commerce.                                       against laws, regulations, and grant terms and
                                                                            conditions. The 17 reports with Commerce findings
                                                                            are listed in Appendix B-1. (Atlanta Regional Office
                                                                            of Audits)




                                                                       59
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 60
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 61




                  OFFICE OF INSPECTOR GENERAL


              T    he mission of the Office of Inspector General is to promote economy, efficiency, and effectiveness and
                   detect and prevent waste, fraud, abuse, and mismanagement in the programs and operations of the U.S.
              Department of Commerce. Through its audits, inspections, performance evaluations, and investigations, OIG
              proposes innovative ideas and constructive solutions that lead to positive changes for the Department. By
              providing timely, useful, and reliable information and advice to departmental officials, the administration, and
              Congress, OIG’s work helps improve Commerce management and operations as well as its delivery of services
              to the public.



              Office of Investigations                                     government. The victims were instructed to use
                                                                           commercial wire transfer services to send payments of
                                                                           $1,500 to $4,500 to Costa Rica, purportedly for
              During this semiannual period, the Office of
                                                                           insurance and customs fees that were required to
              Investigations continued to pursue allegations of
                                                                           retrieve their winnings. Many of those defrauded
              fraud, waste, and abuse affecting Commerce
                                                                           made multiple transfers to the telemarketers,
              programs and operations, and other cases of
                                                                           resulting in more than $30 million in identified losses
              corruption or fraud that negatively impacted the
                                                                           to U.S. residents.
              Department, the federal government, or
              U.S. taxpayers.
                                                                           During this semiannual period, authorities have
                                                                           made eight additional arrests of U.S., Canadian, and
              Discussed below are recent developments in several
                                                                           Costa Rican citizens in connection with the
              investigations that were detailed in previous
                                                                           telemarketing scheme, and six more defendants are
              Semiannual Reports and representative highlights of
                                                                           awaiting extradition to the United States from Costa
              other investigative accomplishments during the past
                                                                           Rica. To date, nine defendants have been convicted
              6 months.
                                                                           in the Western District of North Carolina on various
                                                                           charges, including wire fraud and conspiracy to
              Additional Convictions and Recovery                          commit wire fraud.
              of $1.4 Million in Telemarketing
              Fraud Investigation                                          One of the first arrested in the investigation was a
                                                                           Costa Rican attorney, whose conviction for money
              In our last Semiannual Report (page 47), we detailed         laundering was reported in our September 2006
              the progress of our joint investigation of a major           Semiannual Report (page 48). On January 19, 2007,
              international telemarketing fraud scheme perpetrated         he was sentenced to 27 months’ incarceration, 36
              by callers identifying themselves as employees of the        months’ probation, and a fine of $200. In addition,
              Commerce Department and other federal agencies,              he was ordered to pay restitution of $1,385,997—the
              who told victims they had won huge sweepstakes               bulk of which will be returned to the victims.
              prizes in a national lottery sanctioned by the U.S.          Sentencing is pending for the other eight defendants,


                                                                      61
OIG SAR 5-22-07   5/23/07    2:55 PM        Page 62




              Office of Inspector General                                                      March 2007—Semiannual Report to Congress



              all of whom face prison terms ranging from 5 to 20             OIG agents had tracked him to Canada. In October
              years. (Atlanta Field Office)                                  2006, the brother pleaded guilty to resisting,
                                                                             delaying, or obstructing a law enforcement officer,
              Former USPTO Employee Convicted in                             and on January 22, 2007, he was sentenced in U.S.
              Immigration Fraud Scheme                                       District Court for the Eastern District of California
                                                                             to 1 year probation and a fine of $1,025. (Computer
              Our last Semiannual Report (page 49) related the               Crimes Unit)
              September 2006 arrest of a senior patent examiner
              who was a ringleader in an immigration fraud scheme            Former USPTO Employee Indicted for Time
              involving sham marriages between American citizens             and Attendance Fraud
              and foreign nationals seeking legal immigration
              status in the U.S. A total of 21 individuals were              In November 2006, a former patent examiner now
              subsequently charged in connection with the scheme.            employed at another federal agency was indicted in
              All defendants have since entered guilty pleas and             the Eastern District of Virginia on four counts of
              been sentenced in U.S. District Court for the Eastern          making false statements and one count of theft of
              District of Virginia. On October 2, 2006, the former           government property after an OIG investigation
              patent examiner—who resigned from USPTO                        revealed that the defendant had falsely claimed more
              following his arrest—was convicted of one count of             than $60,000 in salary payments over a 1-year period
              conspiracy to commit immigration fraud, sentenced              prior to her May 2006 resignation from USPTO.
              to 40 months’ incarceration and 3 years’ probation,            The defendant has been placed on administrative
              and ordered to forfeit $200,000 in assets, including           leave pending resolution of the case. (Alexandria
              his house and the proceeds of his federal Thrift               Resident Office)
              Savings Plan. Another principal defendant was
              sentenced to 27 months’ incarceration and asset                Contract Employee Charged with Theft from
              forfeiture of $89,000. The foreign nationals                   NOAA Facility
              implicated in the scheme have all been ordered
              deported. (Alexandria Virginia Resident Office)                A former contract employee hired to restore a fire-
                                                                             damaged NOAA facility in Seattle was charged with
              Brother of Convicted NOAA Employee                             second-degree theft in Superior Court of King
              Sentenced for Aiding Fugitive’s Flight                         County, Washington, after an OIG investigation
                                                                             disclosed that he had stolen a government cell phone
              Our September 2006 Semiannual Report (page 48)                 from the facility and made more than $800 in calls.
              reported the conviction and sentencing of a former             A warrant was issued for his arrest on March 27,
              NOAA employee for possession and production of                 2007, when he failed to appear in court to answer the
              child pornography following an OIG investigation               charges. (Seattle Resident Office)
              that found he had been using government and
              personal computers to download sexually explicit
              images of children for at least a decade. The
              defendant fled the country prior to his arrest,
              traveling first to his brother’s home in California and
              then to various locations in Canada and Europe.
              After a costly, 3-week search requiring the resources
              of numerous law enforcement agencies in the United
              States and abroad, OIG finally located him in Italy
              where he surrendered to U.S. officials and was
              returned to the District of Maryland for trial.
                                                                                                                                                 OIG
              The defendant’s brother was subsequently indicted              These are just a few of the items seized by OIG special agents in
              for helping him evade arrest by warning him that               one government credit card fraud investigation.



                                                                        62
OIG SAR 5-22-07   5/23/07     2:55 PM       Page 63




              March 2007—Semiannual Report to Congress                                                                        Office of Inspector General




              Former ITA Employee Admits Government                                     Department of Justice) and Dirección Central de
              Purchase Card Fraud                                                       Policía Judicial e Inteligencia (Colombia National
                                                                                        Police)—in a working session on cyber crime and
              An OIG investigation of a former ITA employee now                         computer crime technology. The visit was sponsored
              working for another Commerce bureau found that                            by the State Department as part of its Cyber
              she had used a government purchase card to buy                            Terrorism Training Program, which is operated by
              computer equipment and craft supplies for her                             State’s Office of Antiterrorism Assistance. The office
              personal use while employed at ITA. The employee                          provides technical training to international law
              admitted to making numerous unauthorized                                  enforcement agencies and government institutions to
              purchases and offered to return the unused items and                      help them develop the skills to detect, prevent, and
              pay the government for the remaining property. The                        investigate cyber terrorism and other computer-
              case was declined for criminal prosecution by the                         based crimes.
              U.S. Attorney’s Office for the District of Columbia in
              deference to administrative action. In March 2007,                        The Colombian law enforcement agencies,
              the employee returned approximately $1,800 worth                          headquartered in Bogotà, are building computer
              of purchases to ITA, along with a cashier’s check in                      crimes labs in several locations to handle the
              the amount of $988.76. Her current agency has been                        country’s growing problem of Internet crime.
              notified so that appropriate administrative action                        Internet access, though still a relatively modest 11.5
              may be taken. (Washington Field Office)                                   percent in 2005, is growing exponentially in
                                                                                        Colombia, and with it, the types and incidence of
                                                                                        Internet crime. Participants came to hear how our
                                                                                        computer forensics team operates, what crimes it
              Other OIG Activities                                                      most frequently deals with, how the computer
                                                                                        forensics lab is equipped and operated, and how
              Office of Investigations Shares                                           investigators process, store, and manage digital
                                                                                        evidence. The special agent-in-charge of the OIG
              Computer Forensics Expertise                                              Computer Crimes Unit gave the Colombian visitors
              with South American Law                                                   a tour of OIG’s computer forensics facility. He
              Enforcement Agencies                                                      described the computer equipment we use and why,
                                                                                        and detailed the minimum standards and capacities
              On March 25, 2007, OIG’s Office of Investigations                         required for computer equipment that can reliably
              hosted a delegation of 10 police officers and                             support the often voluminous forensic data collection
              investigators from two Colombian law enforcement                          that must be imaged and documented to successfully
              agencies—Fiscalia (Colombia’s equivalent to the U.S.                      prosecute computer criminals.




                                                                                                                               Willy Straubhaar, State Department
              Police officers and investigators from two Colombian law enforcement agencies visited OIG’s cyber crimes unit on March 25 (left). The visit
              was sponsored by the State Department as part of its Cyber Terrorism Training Program, which is operated by State’s Office of Antiterrorism
              Assistance. The office provides technical training to international law enforcement agencies and government institutions to help them develop
              the skills to detect, prevent, and investigate cyber terrorism and other computer-based crimes. Right, Assistant Inspector General for
              Investigations Edward Blansitt welcomed the Colombian visitors to OIG in fluent Spanish.



                                                                                   63
OIG SAR 5-22-07   5/23/07    2:55 PM        Page 64




              Office of Inspector General                                                  March 2007—Semiannual Report to Congress



              The OIG training session grew out of a series of              OIG Conducts Peer Review of OPM’s
              initiatives between the Cyber Training Program and
                                                                            Investigative Operations
              these two Colombian law enforcement agencies that
              began in 2004. According to the State Department’s
                                                                            As part of a government-wide quality assurance
              cyber training coordinator, the cyber program has
                                                                            review program, every 3 years each OIG office of
              made a significant contribution to the capacity of the
                                                                            investigations reviews a counterpart at another
              Colombian National Police and Fiscalia to conduct
                                                                            agency and is in turn reviewed by a different agency.
              computer forensic investigations. “Since the start of
                                                                            Agencies of similar size and workloads are paired as
              our commitment to these two organizations, each of
                                                                            often as possible. In the first review cycle of 2007, we
              them has tripled its computer forensics staff—from 4
                                                                            evaluated the Office of Personnel Management’s
              persons in 2004 to 12 persons in 2006. They are
                                                                            Office of Investigations. Commerce OI will be
              growing quickly as we continue to support their
                                                                            evaluated in the fall of 2007.
              investigative capacity through training and
              equipment grants.”
                                                                            Our review took place from December 2006 to
                                                                            March 2007. A team of OIG investigators undertook
                                                                            a detailed review of investigative facilities, personnel,
              Quality Control Review of                                     policies, and procedures, including site visits to OPM
              Social Security Administration OIG                            headquarters in Washington, D.C., and field offices
              Shows Positive Practices and                                  in San Diego and Laguna Niguel, California. We
                                                                            interviewed 18 of the OIG’s total force of 26 criminal
              Professional Standards
                                                                            investigators, as well as a number of support
                                                                            personnel, and reviewed 25 cases, complaints, and
              We conducted a peer review of audit operations at the
                                                                            proactive projects selected from OPM’s inventory of
              Social Security Administration (SSA) Office of
                                                                            78 matters closed during FY 2006.
              Inspector General during this semiannual period—
              evaluating reports that the office published from
                                                                            Our peer review resulted in a finding of full
              April 1, 2005, through March 31, 2006, which
                                                                            compliance with the professional standards set for
              included the FY 2005 SSA financial statements audit,
                                                                            investigations by the President’s Council on Integrity
              and assessing its internal quality control reviews and
                                                                            and Efficiency and the Department of Justice. We
              relevant policies and procedures.
                                                                            made a number of suggestions for improving OPM’s
                                                                            investigative program and operations and highlighted
              We determined that SSA OIG’s audits function
                                                                            several subject areas in which OPM’s investigative
              complied with professional auditing and quality
                                                                            program showed notable excellence. (Office of
              control standards for the federal government and that
                                                                            Investigations)
              the agency has implemented a number of positive
              practices and controls. (Office of Audits)




                                                                       64
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 65




              March 2007—Semiannual Report to Congress                                                    Office of Inspector General




              TABLES AND STATISTICS

              Statistical Overview




              Table 1. Investigative Statistical Highlights for this Period





              Audit Resolution and Follow-Up
              The Inspector General Act Amendments of 1988                    Department Administrative Order 213-5, Audit
              require us to present in this report those audits issued        Resolution and Follow-up, provides procedures for
              before the beginning of the reporting period                    management to request a modification to an
              (October 1, 2006) for which no management                       approved audit action plan or for a financial
              decision had been made by the end of the period                 assistance recipient to appeal an audit resolution
              (March 31, 2007). Seven audit reports remain                    determination. The following table summarizes
              unresolved for this reporting period (see pages 52              modification and appeal activity during the
              and 58).                                                        reporting period.



                                                                         65
OIG SAR 5-22-07   5/23/07      2:55 PM      Page 66




              Office of Inspector General                                                                  March 2007—Semiannual Report to Congress




              Table 2. Audit Resolution Follow-up




              Table 3. Audits and Inspection Statistical Highlights for this Period




              * This number includes costs questioned by state and local government auditors or independent public accountants.



              Table 4. Audits with Questioned Costs




              NOTES:
              1
                Seven audit reports included in this table are also included among reports with recommendations that funds be put to better use
                (see table 5). However, the dollar amounts do not overlap.
              2
                In Category C, lines i and ii do not always equal the total line C because resolution may result in values greater than the original
                recommendations.




                                                                                     66
OIG SAR 5-22-07   5/23/07     2:55 PM       Page 67




              March 2007—Semiannual Report to Congress	                                                                       Office of Inspector General




              Table 5. Audits with Recommendations that Funds Be Put to Better Use





              NOTES:
              1	
                 Seven audit reports included in this table are also included among reports with questioned costs (see table 4). However, the dollar amounts
                 do not overlap.
              2
                 In Category C, lines i and ii do not always equal the total line C because resolution may result in values greater than the original
                 recommendations.



              Definitions of Terms Used in                                               Recommendation that funds be put to better use:
                                                                                         an OIG recommendation that funds could be used
              the Tables                                                                 more efficiently if Commerce management took
                                                                                         action to implement and complete the
              Questioned cost: a cost questioned by OIG because                          recommendation, including (1) reductions in
              of (1) an alleged violation of a provision of a law,                       outlays; (2) deobligation of funds from programs or
              regulation, contract, grant, cooperative agreement, or                     operations; (3) withdrawal of interest subsidy costs
              other agreement or document governing the                                  on loans or loan guarantees, insurance, or bonds;
              expenditure of funds; (2) a finding that, at the time                      (4) costs not incurred by implementing
              of the audit, such cost is not supported by adequate                       recommended improvements related to Commerce, a
              documentation; or (3) a finding that an expenditure                        contractor, or a grantee; (5) avoidance of unnecessary
              of funds for the intended purpose is unnecessary or                        expenditures identified in preaward reviews of
              unreasonable.                                                              contracts or grant agreements; or (6) any other
                                                                                         savings specifically identified.
              Unsupported cost: a cost that, at the time of the
              audit, is not supported by adequate documentation.                         Management decision: management’s evaluation of
              Questioned costs include unsupported costs.                                the findings and recommendations included in the
                                                                                         audit report and the issuance of a final decision by
                                                                                         management concerning its response.




                                                                                    67
OIG SAR 5-22-07   5/23/07    2:55 PM        Page 68




              Office of Inspector General                  March 2007—Semiannual Report to Congress




              Appendix A. Report Types this Period




              Appendix A-1. Performance Audits




              Appendix A-2. Financial Assistance Audits




                                                      68
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 69




              March 2007—Semiannual Report to Congress             Office of Inspector General




              Appendix A-3. Financial Statements Audits




              Appendix A-4. Inspections and Systems Evaluations





                                                         69
OIG SAR 5-22-07   5/23/07     2:55 PM       Page 70




              Office of Inspector General                       March 2007—Semiannual Report to Congress




              Appendix B. Processed Audit Reports




              * Includes 80 ATP program-specific audits.




                                                           70
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 71




              March 2007—Semiannual Report to Congress              Office of Inspector General




              Appendix B-1. Processed Reports with Audit Findings




                                                         71

OIG SAR 5-22-07   5/23/07    2:55 PM        Page 72




              Office of Inspector General                                                   March 2007—Semiannual Report to Congress




              Reporting Requirements
              The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports. The
              requirements are listed below and indexed to the applicable pages of this report.




              Section 4(A)(2): Review of Legislation                          reports for which corrective action has not been
                                                                              completed. Section 5(b) requires that the Secretary
              and Regulations
                                                                              transmit to Congress statistical tables showing the
                                                                              number and value of audit reports for which no final
              This section requires the inspector general of each
                                                                              action has been taken, plus an explanation of the
              agency to review existing and proposed legislation
                                                                              reasons why recommended action has not occurred,
              and regulations relating to that agency’s programs
                                                                              except when the management decision was made
              and operations. Based on this review, the inspector
                                                                              within the preceding year.
              general is required to make recommendations in the
              semiannual report concerning the impact of such
                                                                              To include a list of all significant unimplemented
              legislation or regulations on the economy and
                                                                              recommendations in this report would be
              efficiency of the management of programs and
                                                                              duplicative. Information on the status of any audit
              operations administered or financed by the agency or
                                                                              recommendations can be obtained through OIG’s
              on the prevention and detection of fraud and abuse
                                                                              Office of Audits.
              in those programs and operations. Comments
              concerning legislative and regulatory initiatives
              affecting Commerce programs are discussed, as
              appropriate, in relevant sections of the report.                Sections 5(A)(5) and 6(B)(2):
                                                                              Information or Assistance Refused
              Section 5(A)(3): Prior Significant                              These sections require a summary of each report to
              Recommendations Unimplemented                                   the Secretary when access, information, or assistance
                                                                              has been unreasonably refused or not provided. There
              This section requires identification of each significant        were no instances during this semiannual period and
              recommendation described in previous semiannual                 no reports to the Secretary.



                                                                         72
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 73




              March 2007—Semiannual Report to Congress                                                    Office of Inspector General




              Section 5(A)(10): Prior Audit Reports                        must be consulted and must approve in advance any
                                                                           modification to an audit action plan. For financial
              Unresolved
                                                                           assistance audits, OIG must concur with any decision
                                                                           that would change the audit resolution proposal in
              This section requires a summary of each audit report
                                                                           response to an appeal by the recipient. The decisions
              issued before the beginning of the reporting period
                                                                           issued on the eight appeals of audit-related debts were
              for which no management decision has been made by
                                                                           finalized with the full participation and concurrence
              the end of the reporting period (including the date
                                                                           of OIG.
              and title of each such report), an explanation of why
              a decision has not been made, and a statement
              concerning the desired timetable for delivering a
              decision on each such report. There were five Census         Section 5(A)(12): Significant
              and two NIST reports more than 6 months old.                 Management Decisions with Which
                                                                           OIG Disagreed
              Section 5(A)(11): Significant Revised                        This section requires information concerning any
              Management Decisions                                         significant management decision with which the
                                                                           inspector      general    disagrees.   Department
              This section requires an explanation of the reasons          Administrative Order 213-5 provides procedures for
              for any significant revision to a management decision        elevating unresolved audit recommendations to
              made during the reporting period. Department                 higher levels of Department and OIG management,
              Administrative Order 213-5, Audit Resolution and             including their consideration by an Audit Resolution
              Follow-up, provides procedures for revising a                Council. During this period no audit issues were
              management decision. For performance audits, OIG             referred to the council.




                                                                      73
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 74




                  TYPES OF OIG WORK PRODUCTS

              The various kinds of audits, evaluations, inspections, and investigations at our disposal enable the IG's office to
              assess Commerce programs and operations from a range of perspectives. Thus we are able to provide program
              managers with reviews and recommendations that are either narrowly focused or comprehensive, as needed, to
              aid them in ensuring the most efficient and effective use of taxpayer dollars.



              AUDITS                                                        INSPECTIONS
              Performance Audits address the efficiency,                    Inspections are reviews of an activity, unit, or office,
              effectiveness, and economy of the Department's                or a contractor or other nonfederal entity that
              programs, activities, and information technology              receives funds from the Department. They focus on
              systems. They may check a unit's compliance with              an organization, not a whole program, and are often
              laws and regulations, and evaluate its success in             designed to give agency managers timely and useful
              achieving program objectives. They may also involve           information about operations, including current and
              reviewing the Department's financial assistance               foreseeable problems.
              awards by assessing an award recipient’s compliance
              with laws, regulations, and award terms; allowance of
              costs; and the degree to which projects achieved
              intended results.                                             EVALUATIONS
              Financial Audits determine whether (1) a reporting
                                                                            Program Evaluations are in-depth reviews of specific
              entity's financial statements are presented fairly and
                                                                            management issues, policies, or programs.
              in accordance with generally accepted accounting
              principles; (2) the entity has an internal control
                                                                            Systems Evaluations review system development,
              structure that provides reasonable assurance of
                                                                            acquisitions, operations, and policy, focusing on
              achieving the control objectives set forth by OMB;
                                                                            computer systems and other technologies.
              and (3) the entity complied with laws and regulations
              that could have a direct and material effect on the
              financial statements, the Federal Financial
              Management Improvement Act, and other laws and
              regulations.                                                  INVESTIGATIONS
              Attestation Engagements involve examining,                    Investigations are conducted based on alleged or
              reviewing, or performing agreed-upon procedures on            suspected wrongdoing by Department employees,
              a subject matter or an assertion about a subject              contractors, recipients of financial assistance, and
              matter and reporting the results. Attestation                 others responsible for handling federal resources.
              engagements can have a broad range of financial or            Investigations that expose violations of Department
              nonfinancial focuses, such as an entity’s compliance          rules and regulations or acts of fraud committed
              with laws and regulations; management’s discussion            against the U.S. government can result in
              and analysis presentations; and allowability and              administrative sanctions and/or criminal or civil
              reasonableness of final grant and contract costs.             prosecution.




                                                                       74
OIG SAR 5-22-07   5/23/07    2:55 PM    Page 75




              ADDITIONAL PHOTOGRAPHY AND

               GRAPHICS CREDITS/CAPTIONS

              Page 18 Photos courtesy BIS and                                             4. Copyright Robert Rathe
                      Department of Defense                                                  NIST researcher Kristy Richie analyses DNA
                                                                                             samples as part of a project to prepare new
              Page 32 Photos courtesy ITA                                                    "Fragile X" reference materials.
                      Artist’s rendering of Freedom Tower and
                      New York Harbor courtesy                                            5. Copyright Robert Rathe
                      1WTC, LLC
                                                                                             Mechanical engineer Jon Pratt makes
              Page 50 1. Photo by Barry Gardner                                              an adjustment to the prototype NIST
                         NIST mechanical engineer Herb Bandy                                 Electrostatic Force Balance designed to
                         uses a coordinate measuring machine to                              measure nanoscale forces.
                         measure the dimensions of a cylinder-shaped
                         machined part.                                                   6. Copyright Geoffrey Wheeler
                                                                                             NIST physicist Sae Woo Nam holds a
                        2. Copyright Robert Rathe                                            circuit used to amplify signals from the new
                            High temperature furnaces are used to grow                       photon detector.
                            thin oxide layers on silicon wafers, dope the
                            wafers with boron or phosphorus, and anneal          Page 54	 Photos courtesy DOC Photographic Services
                            the wafers.                                                   and ITA

                        3. Copyright Geoffrey Wheeler                            Page 60	 Photos courtesy DOC Photographic Services
                                                                                          and OIG staff
                            NIST materials research engineer Tammy
                            Oreskovic deposits smooth muscle cells onto a
                            polymer scaffold.




                                                                            75
OIG SAR 5-22-07   5/23/07   2:55 PM   Page 76




                                                76

OIG SAR 5-22-07   5/23/07   2:55 PM   Page 77




                                                77

